<html>
<title> - U.S. FUNDING FOR THE U.N. POPULATION FUND: THE EFFECT ON WOMEN'S LIVES</title>
<body><pre>[Senate Hearing 107-515]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-515
 
 U.S. FUNDING FOR THE U.N. POPULATION FUND: THE EFFECT ON WOMEN'S LIVES
=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS
                             AND TERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 27, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                       U. S. GOVERNMENT PRINTING OFFICE
79-323                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                 ------                                

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS
                             AND TERRORISM

                  BARBARA BOXER, California, Chairman
JOHN F. KERRY, Massachusetts         MICHAEL B. ENZI, Wyoming
BILL NELSON, Florida                 BILL FRIST, Tennessee
JOSEPH R. BIDEN, Jr., Delaware       JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     SAM BROWNBACK, Kansas

                                  (ii)





 


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biegman, Hon. Nicolaas H., former Ambassador of the Netherlands 
  to NATO, Amsterdam, The Netherlands............................    21
    Prepared statement...........................................    23
Boxer, Hon. Barbara, U.S. Senator from California, submissions 
  for the record:
    Letter from Senator Gordon Smith to President George W. Bush, 
      dated January 15, 2002.....................................     1
    Article from the National Council of Jewish Women magazine, 
      dated Summer 2001..........................................     7
    Leaflet on Reproductive Health/Family Planning Project, 
      distributed by Chinese authorities.........................    41
    Letter from Executive Director, UNFPA, to Senator Boxer, 
      dated March 4, 2002........................................    60
Brownback, Hon. Sam, U.S. Senator from Kansas, submissions for 
  the record:
    Article from the Pakistan News Service, dated November 23, 
      2001.......................................................     6
    Report of the Population Research Institute, dated December 
      12, 2001...................................................    51
Dewey, Hon. Arthur E. ``Gene'', Assistant Secretary of State, 
  Bureau of Population, Refugees, and Migration, Department of 
  State, Washington, DC..........................................     9
    Prepared statement...........................................    11
    Responses to additional questions for the record.............    64
Eberstadt, Dr. Nicholas, Henry Wendt Chair in Political Economy, 
  American Enterprise Institute, Washington, DC..................    29
Enzi, Hon. Mike, U.S. Senator from Wyoming, prepared statement...    31
Flicker, John, president, National Audubon Society, prepared 
  statement......................................................    65
Guy, Ms. Josephine, Director of Government Affairs, America 21, 
  Louisville, KY.................................................    26
Oakley, Hon. Phyllis E., former Assistant Secretary of State for 
  Intelligence and Research; former Assistant Secretary of State 
  for Population, Refugees, and Migration; Adjunct Professor, 
  Johns Hopkins University, Washington, DC.......................    17
    Prepared statement...........................................    18

                                 (iii)

  


 U.S. FUNDING FOR THE U.N. POPULATION FUND: THE EFFECT ON WOMEN'S LIVES

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2002

                           U.S. Senate,    
              Subcommittee on International
                          Operations and Terrorism,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:20 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the subcommittee), presiding.
    Present: Senators Boxer, Brownback, and Enzi.
    Senator Boxer. I am glad to see that Senator Brownback is 
here, and we are going to start pretty much on time. The 
Subcommittee on International Operations and Terrorism will 
come to order.
    I am going to enter in the record, unless there is 
objection, a letter that had been written by Senator Smith 
earlier this year in which he asked for the release of these 
funds, saying that he shares the concern about China's brutal 
one-child policy, but he is convinced that the presence of 
UNFPA in China makes abuses, such as coerced abortion, less 
likely.
    So I would ask unanimous consent that that be placed in the 
record.
    [The letter referred to follows:]

                                   Gordon H. Smith,
                                      United States Senate,
                                  Washington, DC, January 15, 2002.

President George W. Bush
1600 Pennsylvania Avenue, NW,
Washington, DC 20500

Dear President Bush:

    I am writing regarding an urgent issue that has come to my 
attention involving U.S. contributions to the United Nations Population 
Fund (UNFPA). I understand that you have come under pressure to cut 
back or eliminate funding for this program, despite a bipartisan 
agreement which set UNFPA's funding level at $34 million in fiscal year 
2002. I urge you to fully fund this vital international health program.
    Throughout my public life, I have supported policies that both 
protect the sanctity of human life and prevent the tragedy of abortion. 
I believe that whether one is pro-life or pro-choice, we all have an 
obligation to work together to make abortion a rare event. Since 1973, 
it has been illegal to use U.S. government funds to perform abortions 
overseas, and a recent U.S. General Accounting Office (GAO) study 
indicates that UNFPA recipients have complied with this requirement. 
Additionally, all the evidence I have reviewed indicates that 
international family planning programs have significantly reduced the 
incidence of abortion worldwide, while improving the quality of life 
for women in developing countries.
    Secretary of State Powell has also supported this position. 
Speaking before Congress last year, he stated, ``UNFPA provides 
critical population assistance to developing countries and countries 
with economies in transition.'' He went on to note that the 
``activities of the UNFPA are fully consistent with overall U.S. 
efforts in developing countries to raise the standard of living, reduce 
poverty, and lessen disparities of wealth within and among countries.'' 
Secretary Powell also determined that UNFPA was in full compliance with 
the U.S. laws against coercive abortion. The State Department then 
solidified its support for UNFPA activities last November, when the 
agency was granted $600,000 as a key partner in providing assistance 
for emergency infant delivery kits and sanitary supplies for Afghan 
refugee women in Iran, Pakistan, Uzbekistan, and Tajikistan.
    I understand--and frankly I share--your concern about China's 
brutal one-child policy; however, I am convinced that the presence of 
UNFPA in China makes abuses such as coerced abortion less likely. This 
conclusion was supported by a recent United Nations investigation. In 
fact, because UNFPA only funds programs in Chinese counties that have 
renounced the one-child policy, eliminating funding for these programs 
risks a return to the policy that would increase the incidence of 
abortion in China.
    Your administration made a laudable public commitment to 
international health programs last year with substantial budget 
requests for U.N. AIDS and other global health initiatives, including 
$25 million for the UNFPA. Given the overwhelming support in both the 
House and Senate for UNFPA funding and activities, I urge you to fully 
fund the U.S. contributions to the UNFPA at $34 million.
    Warm regards,
                                      Gordon Smith, Oregon.

    Senator Boxer. Ladies and gentlemen, I want to welcome you 
here. Thank you all for coming on both sides of this question. 
We hope today the hearing will be illuminating.
    The U.N. Population Fund, commonly known as UNFPA, is the 
largest international source of population assistance. Since it 
began operations in 1969, UNFPA has provided $5 billion in 
assistance to developing countries. These funds come from 120 
countries.
    As Secretary Colin Powell has said, the UNFPA ``provides 
critical population assistance to developing countries and 
countries with economies in transition.'' I agree with him.
    The UNFPA provides assistance to more than 140 nations. In 
comparison, USAID provides population assistance in less than 
half as many countries. UNFPA works to prevent teen pregnancy 
and HIV/AIDS, promote safe pregnancy and delivery, strives to 
expand reproductive healthcare for the poor and the hard-to-
reach groups.
    The fund also supports data collection and research to 
encourage appropriate population and development policies and 
activities to improve the status of women, such as programs to 
eliminate female genital mutilation. UNFPA also provides 
assistance to those in emergency situations, such as the one in 
Afghanistan. And I am going to concentrate my remarks on the 
impact of these programs in Afghanistan.
    Just last October the administration seemed to acknowledge 
the critical role of the UNFPA when it provided $600,000 to 
respond to the reproductive health risks faced by the Afghan 
people. To put this into perspective, that $600,000, the 
country of Luxembourg, a nation of 450,000 people, gave $4.5 
million. So I want to say that again. To help the women in 
Afghanistan with their reproductive health risks they did face, 
the Bush administration made available $600,000. The Country of 
Luxembourg gave $4.5 million.
    UNFPA is working in Afghanistan in the areas of primary 
healthcare, prevention and management of sexual violence, 
prevention and treatment of sexually transmitted diseases, 
protection of mothers' and infants' health, and family planning 
services that include counseling and literacy courses.
    Senator Brownback and I might not agree at the end of the 
day on this particular issue, but he has worked with me very 
hard in making sure that the women of Afghanistan are treated 
with dignity and respect. And I would make the argument to him 
and all others that the help to the women is desperately 
needed. And that includes UNFPA.
    Afghan women bear an average of 6.9 children and face a 1 
in 15 chance lifetime risk of dying in childbirth. Of every 
1,000 live births, 17 women die of pregnancy-related medical 
complications in Afghanistan. And 25 percent of all children 
die before the age of 5. Overcrowding is such that even Afghan 
women who are fortunate enough to have access to a medical 
facility are discharged just 12 hours after giving birth.
    This weekend, The Washington Post reported on a clinic in 
Kabul where there are no epidurals, no Lamaze breathing, and no 
surgeons for emergency C-sections. Oftentimes there is no water 
and no lights. This is where UNFPA can help. Next month the 
UNFPA will provide equipment urgently needed at this facility 
and others like it in Afghanistan, including operating tables, 
incubators, anesthesia machine, and a full range of medical 
supplies. And now we have cut back on money. And that money is 
needed.
    Given the dire need for UNFPA programs in Afghanistan and 
elsewhere in the world, one would think the administration 
would be asking Congress to increase the U.S. contribution to 
the UNFPA. But the administration has done exactly the 
opposite. President Bush has refused to release $34 million in 
appropriated funds that has been available since December for 
the UNFPA and has chosen to effectively zero out funding in his 
fiscal year 2003 budget request.
    UNFPA estimates that $34 million for family planning would 
be enough to prevent 2 million unwanted pregnancies, eliminate 
800,000 induced abortions, 4,700 maternal deaths, nearly 60,000 
cases of serious maternal illness, and over 77,000 infant and 
child deaths. Ultimately, $34 million would provide for 13 
percent of condoms needed for HIV/AIDS prevention worldwide.
    We know that UNFPA will continue to help Afghan women and 
children who are in such desperate need. But it is sad to think 
that they may have to do that without the help of the greatest 
country in the world, the United States of America. Just think 
of the good that could be done with that $34 million.
    A delay in the U.S. contribution has already forced the 
UNFPA to alert its regional divisions of funding shortfalls. 
This means that plans for future and ongoing program have been 
scrapped. The question is: Why has the administration chosen to 
withhold this funding? I happen to believe in my heart of 
hearts--I am known for my direct, straight-from-the-shoulder 
response--that it is about politics here in this country.
    I know that there are small groups that have urged the 
President to cut off all funding for the UNFPA. And the groups 
have called for an end to this funding saying that the fund is 
involved in China's coerced abortion policy. I already put a 
letter into the record from a pro-life Senator, Senator Gordon 
Smith, who says he totally disagrees with this reason.
    Let me just go on the record in a very clear way. China's 
coerced abortion and one-child policy is horrible. I believe 
that policy is indefensible. And the UNFPA feels the same way. 
We should all be on the same page here instead of having an 
argument where there should be no argument. The work performed 
by the UNFPA is guided by the program of action adopted in the 
1994 International Conference on Population and Development.
    This document states, ``In no case should abortion be 
promoted as a method of family planning'' and ``coercion has no 
part to play in population and development programs.'' That is 
in the UNFPA. That is part of their guide.
    Furthermore, these allegations have been refuted by an 
international review team led by Ambassador Nicolaas Biegman, 
who is here today. And these allegations are not supported in 
the State Department's own human rights report. In addition, 
the U.S. contribution to the UNFPA is held in a segregated 
account to ensure that no money, underscored, ``no money,'' is 
spent in China. It has been that way since 1994.
    Nevertheless, in light of these findings, the 
administration still refuses to release funding for the UNFPA. 
I believe it is time for this administration to look at the 
facts, time to set aside political interests and act in the 
best interest of Afghan women, Afghan women and the millions of 
other men and women whose lives could be saved by the UNFPA 
funds.
    I so admired the First Lady's address on Afghanistan and 
the condition of women in Afghan. And I remember how pleased 
Senator Brownback and I were when Laura Bush just got right out 
there with her words of encouragement and support for the women 
of Afghanistan.
    This is what she said on November 17, ``I hope Americans 
will join our family in working to ensure that dignity and 
opportunity will be secured for all the women and children of 
Afghanistan.''
    I just want to say today, in my opinion, dignity and 
opportunity is what the UNFPA is all about. If we care about 
children and we care about women, we do not want them to die 
needlessly. And that is what is happening because of a lack of 
this healthcare.
    Today we will have the opportunity to hear from the State 
Department, hear their views on the UNFPA, and also from the 
panel of private witnesses, who will give their expert 
testimony on the current situation. I want to give a warm 
welcome to all of our witnesses this afternoon. I look forward 
to hearing from you all.
    And I would be happy to give 5 minutes now to Senator 
Brownback for an opening statement.
    Senator Brownback. Thank you, Madame Chairman.
    First, I would like to thank the Chair for calling the 
hearing and Congress and those interested in the activities of 
the United Nations Fund for Population Activities. I raise 
concerns about their day-to-day activities in countries with 
policies that result in coerced abortions and coerced 
sterilizations.
    I am looking forward to hearing from some of the witnesses 
that have eyewitness accounts of what is taking place in some 
of these countries and situations. I think this hearing 
provides a good opportunity to discuss some of these concerns.
    First, let me say that I am disappointed that there are no 
witnesses representing the UNFPA here today. As most of you 
know and as the members of this committee are well aware, the 
United States has conditioned its involvement with 
organizations that perform or promote abortions at home and has 
also done so abroad. This issue is larger than abortion. And in 
fact, it is about forced abortion.
    The Kemp-Kasten amendment states, ``None of the funds made 
available in this act, nor any unobligated balances from prior 
appropriations, may be made available to any organization or 
program, which, as determined by the President of the United 
States, supports or participates in the management of a program 
of coercive abortion or involuntary sterilization.''
    The reasons for this policy are simple. There are many in 
these United States who object to abortion in principle. There 
are many more who object to the performance of forced abortions 
and involuntary sterilizations. One of the questions that we 
will address in this hearing today is the extent to which the 
Government of the United States will force its citizens to 
subsidize some of the practices of the UNFPA.
    I have my own very deep concerns with the UNFPA, apart from 
some of those that we will discuss here today. One point that I 
do think we need to discuss today is the very deep concern that 
many have over the numerous reports, many of which have been 
substantiated as routine practices rather than isolated 
instances, that UNFPA officials support the work of officials 
from the Peoples' Republic of China in carrying out non-
voluntary abortions and sterilizations for the purpose of 
enforcing that country's one-child policy. You will hear from a 
witness on that today.
    And I have to say, Madame Chairman, this is a very personal 
issue for me. My youngest daughter is from China. She is a 
beautiful girl. And you do not know the number of nights I have 
gone in there in prayer, just thanking God that some mother in 
China saw fit to see her on through--she is a gorgeous child--
and to resist the push and the efforts by the Chinese 
Government--and I want to know if that is also supported by the 
U.N., and we will have witnesses to testify on that today--in 
that pregnancy. She is a gorgeous child that we are so 
fortunate to have in this country and in our family today.
    As well, there is now evidence of UNFPA officials being 
involved in singular and equally offensive policies and 
practices in Vietnam and Peru. It seems that there is a pattern 
of cooperation developing between the UNFPA and those countries 
that used forced abortion or sterilization to meet population 
targets.
    We have a news account that--I want to read a portion of 
this. ``The United Nations Population Fund''--this is dated 
November 23, 2001, by the Pakistan News Service--saying ``The 
U.N. Population Fund is distributing abortion devices and 
chemicals disguised in kits marked for safe delivery in Afghan 
refugee camps in Pakistan. The survey conducted by PNS in 
refugee camp in Watertown revealed the survey was also endorsed 
by Population Research Institute here on Thursday confirming 
the distribution of abortion devices and medicines and on 
Afghan women in refugee camps in Pakistan and Iran. Giving the 
great unmet needs for food, shelter, water, and basic health 
supplies, along with strong opposition to abortion throughout 
the Islamic world, the UNFPA's Afghan refugee operations are 
gaining little ground against the intended recipients, said 
Steve Mosher, the president of the institute, while briefing 
the newsmen.''
    I am asking unanimous consent that the full article be 
included in the record.
    Senator Boxer. Without objection, so ordered.
    [The article referred to follows:]

            [From the Pakistan News Service, Nov. 23, 2001]

   UNFPA Distributing Abortion Devices Among Starved Afghan Refugees

    Chaman, Pakistan, Nov. 23 (PNS): The United Nations Population Fund 
(UNFPA) is distributing abortion devices and chemicals, disguised in 
kits marked for safe delivery in Afghan refugee camps in Pakistan, a 
survey conducted by PNS at a refugee camp in border town of Chaman 
revealed.
    The survey was also endorsed by London-based Population Research 
Institute here on Thursday confirming the distribution of abortion 
devices and medicines among the Afghan women in refugee camps in 
Pakistan and Iran.
    Given the great unmet need for food, shelter, water and basic 
health supplies along with strong opposition to abortion throughout the 
Islamic world, the UNFPA's Afghan refugee operations are gaining little 
ground against the intended recipients, said Steve Mosher, the 
President of the Institute while briefing the newsmen.
    Early reports confirm that war-traumatized refugees, approached by 
UNFPA workers pandering abortion services, wander away quickly. And a 
few brave refugees in an attempt to protect their female population and 
progeny have confiscated abortion pills provided by UNFPA.
    ``I have informed the authorities concerned about the distribution 
of pills among the women, but no action has so far been taken in this 
regard,'' Malik Khan, an elderly Afghan refugee told PNS.
    Still, the UNFPA offers only abortion and ``family planning'' 
services to Afghan women and their families. Infant and maternal 
mortality rates rank among the highest in the world in this refugee 
setting, yet basic life-saving aid from UNFPA remains in want. The 
immediate goal for the UNFPA is to break down cultural resistance to 
abortion and contraception within the refugee camps, Mr. Mosher 
observed.
    UNFPA's long-term goal is to establish permanent operations in 
Afghanistan. In conjunction with international abortion providers Marie 
Stopes and the International Planned Parenthood Federation (IPPF), 
UNFPA plans to spend an estimated total of $20 million for abortion 
services within Afghanistan over the next few years, he contended.

    Senator Brownback. I think that this committee needs to 
hear some answers to some of these allegations today or, at a 
minimum, start to get to the bottom of some of these issues. 
Again, I am very disappointed that there is no one here 
representing UNFPA that might help shed some light on these 
questions.
    Finally, I am looking forward in particular to the 
testimony of Ms. Josephine Guy, with whom I have had the 
pleasure of previously visiting. I am interested to hear about 
her recent trip to China and whether or not she found any 
evidence to substantiate some of the charges that have been 
brought regarding the apparent partnership that exists between 
the UNFPA and the Peoples' Republic of China's aggressive 
enforcement of the one-child policy.
    There are a lot of issues here, and this is one of these 
uncomfortable discussions and one of these uncomfortable 
hearings where I and the chairman have worked together on a 
number of women's issues, but we are apart on this one. And I 
am hopeful that we can, perhaps through the witnesses and 
testimony that is brought forward today, get to the bottom of 
some answers here to some very serious questions.
    Thank you for holding the hearing.
    Senator Boxer. Thank you. Thank you so much. We are good 
friends. We have agreed to disagree on this one.
    I would say that, Senator, as you probably--I hope you 
would know that both the minority and the majority chose the 
witnesses for today. And it would have been fine if you wanted 
to ask someone from the UNFPA. The reason we did not do that is 
because this is about the UNFPA, expect them to say they needed 
the funding. I thought it would be better to get people from 
both sides of the issue, who have actually seen what they do, 
to be more objective on point. But you had every right to ask 
someone from the UNFPA. I would have said, ``Of course.''
    Senator Brownback. Maybe we can do that at a subsequent 
hearing----
    Senator Boxer. No problem.
    Senator Brownback [continuing]. So that we could have this 
background.
    Senator Boxer. I would be happy to do that.
    Let me just--I would ask unanimous consent to place in the 
record an article that appeared in the National Council of 
Jewish Women Magazine, an article by the head of the UNFPA, 
which reads in part, ``UNFPA does not provide support for 
abortions or abortion-related services activities anywhere in 
the world. Neither does the fund promote or provide support for 
involuntary sterilization or coercive practices of any kind. In 
fact, the fund is a global leader in working to eliminate the 
use of coercive family planning practices, including places 
like China.''
    [The article referred to follows:]

                  [From the NCJW Journal, Summer 2001]

                  the united nations population fund:

             Global Catalyst for Family Planning and Women

                           (By Thoraya Obaid)

    We don't seem to hear much about the population explosion these 
days. In fact we have recently been hearing a lot about the ``birth 
dearth,'' an apparent shortage of babies in countries like Italy and 
Spain. Perhaps we don't need international assistance for family 
planning or for organizations like the United Nations Population Fund. 
The UN has been working in this area since 1969: isn't that long 
enough?
    In truth there are more births than ever before, about 130 million 
per year, to be exact, and the population of the world is increasing by 
about 77 million annually, compared with about 60 million in 1969. At 
6.1 billion, there is no dearth of people in the world, and no dearth 
of new faces arriving at the world's table.
    The United Nations Population Fund (UNFPA) is the global voice for 
international family planning and the largest internationally funded 
source of population assistance to developing countries. UNFPA 
organized and helped to broker the historic agreement reached in 1994 
at the International Conference on Population and Development (ICPD), 
which created a new framework for international family planning and 
women's empowerment.
    The comprehensive approach adopted at the ICPD shifts the emphasis 
of population planning from reaching demographic targets to promoting 
human rights and sustainable development, changing the focus from 
numbers to people. That is why UNFPA is guided by, and promotes, the 
principles of the ICPD action plan and its commitments to reproductive 
rights, gender equality and male responsibility, and to the autonomy 
and empowerment of women everywhere. Meeting these goals will 
contribute to improving the quality of life and to the universally 
accepted aim of stabilizing world population. These goals are an 
integral part of all efforts to achieve sustained and sustainable 
social and economic development that meets human needs, ensures well-
being and protects the natural resources on which all life depends.
    The United States is an important contributor to UNFPA (providing 
$21.5 million last year), but far behind the Fund's leading 
contributors Japan and the Netherlands, which are each contributing 
almost $50 million annually.
    UNFPA provides support to 156 countries, more than any other donor 
agency, and, in many cases, is an irreplaceable source of funds for 
many countries. UNFPA has played a key role in countries where few 
other donors provide population assistance--such as a number of small 
African countries. Since 1969, UNFPA has provided almost $5 billion for 
voluntary family planning in developing countries.
    Organized family planning, led by UNFPA during the past 30 years, 
has been one of the most successful development efforts ever. Globally, 
fertility rates have been reduced from 6 to 3 children per woman, 
improving the health of mothers and their children. The rate of global 
population growth has slowed dramatically over the past three decades 
as a result of international efforts led by UNFPA to provide safe, 
voluntary family planning around the world. Still, the 48 poorest 
nations in the world are scheduled to triple in the next 50 years, 
necessitating continued support for international family planning.
    Operationally, UNFPA's three main areas of work are: to help ensure 
universal access to reproductive health, including family planning and 
sexual health, to all couples and individuals by the year 2015; to 
support population and development strategies that enable capacity-
building in population programming; and to promote awareness of 
population and development issues and to advocate for the mobilization 
of the resources and political will necessary to accomplish its areas 
of work.
    UNFPA does not provide support for abortions or abortion-related 
activities anywhere in the world. Neither does the Fund promote or 
provide support for involuntary sterilization or coercive practices of 
any kind. In fact, the Fund is a global leader in working to eliminate 
the use of coercive family planning practices, including places like 
China.
    As is its right as a UN member, China has requested assistance from 
UNFPA. In 1997, after several years of discussion, UNFPA and the 
Chinese Government agreed upon activities that the UNFPA can undertake 
in accordance with the principles set at the ICPD (including those 
associated with human rights, gender equality, and individual liberty). 
In fact, UNFPA's activities in China represent a significant 
breakthrough. Before agreeing to provide assistance, UNFPA insisted 
that China agree to adhere to the principles contained in the ICPD 
Program of Action in the 32 counties where UNFPA will provide 
assistance. Importantly, Chinese authorities have agreed to abolish all 
quotas and targets in those counties.
    The four-year program is designed to improve the delivery of 
voluntary family planning information and services. Specifically, the 
program focuses on improved counseling services; expanding the range of 
available contraceptive methods; improving pre- and post-partum care 
and assisted births; training health workers about the methodologies 
and advantages of informed consent, and emphasizing the international 
requirement to do so; and enhancing efforts to prevent and treat 
sexually transmitted diseases. In addition, the program includes 
components to enhance the status of women and encourage exchanges with 
voluntary programs in other developing countries.
    UNFPA's efforts in China between 1980 and 1995 have advanced the 
availability of quality, voluntary family planning; improved maternal 
health; reduced infant mortality; and advanced human rights. 
Encouragingly, the U.S. State Department's most recent human rights 
report on China notes significant progress toward reducing coercive 
family planning practices. For many years, it has been reported that 
China's most restrictive practices have occurred in the cities. The 
State Department's recent report on human rights in China in 2000 
states that ``the Government was beginning to relax its policies in the 
cities,'' including Beijing, Shanghai, Zhejiang Province and parts of 
Guizhou Province. The report goes on to state, ``outside the cities, 
exceptions to the `one-child policy' are becoming the norm.'' Taken 
together, these findings essentially indicate a countrywide relaxation 
of restrictive practices.
    The State Department's report indicates that UNFPA has done exactly 
what it said it would do in the 32 counties in which it is working--
getting these counties to eliminate the system of strict, government-
assigned birth quotas. Moreover, the report indicates that Chinese 
authorities are recognizing the greater wisdom of the non-restrictive 
approach advocated by UNFPA: ``600 counties covering about half the 
country's population have adopted more liberal policies.''
    All over the world, UNFPA is forging ahead with its efforts to 
promote an inclusive, compassionate, voluntary approach to family 
planning and reproductive health. Already, the Fund's work has made a 
difference for millions of families. In the future, UNFPA will continue 
its efforts to realize the hopeful vision agreed upon at the 1994 ICPD 
and in the process to help improve the quality of life for people 
everywhere, with special attention to those most in need of assistance.

    Senator Boxer. So clearly, there are differences of opinion 
on this. And we want to explore those differences with our 
witnesses here today and through our questions. So why do we 
not just get started on this.
    I am pleased to introduce again the Assistant Secretary of 
State for Population, Refugees, and Migration. Mr. Arthur E. 
``Gene'' Dewey. The PRM Bureau, as it is known, is responsible 
for U.S. international population policy and promotes its goals 
through bilateral and multilateral cooperation.
    Mr. Dewey.

  STATEMENT OF ARTHUR E. DEWEY, ASSISTANT SECRETARY OF STATE, 
 BUREAU OF POPULATION, REFUGEES, AND MIGRATION, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Dewey. Thank you very much, Madame Chairman.
    Witnesses normally start by saying how delighted they are 
to appear before a committee, and immediately compromise their 
credibility in the process. I have to confess in this case, 
Madame Chairman, that it was a much greater pleasure to appear 
before you at my confirmation hearing just a few weeks ago. And 
I appreciate your graciousness at that hearing and your 
prediction that I would be confirmed, which has been the case. 
And I am delighted to be on the job, although it may be less of 
a delight to be here at this hearing today.
    The central issue for the hearing is the status of the U.S. 
funding for UNFPA for fiscal year 2002. There is a short answer 
to that, and that is that the status is that the funding is 
under review at the White House level. But the central question 
that I would like to address in just a few summary remarks, and 
then I would like to submit a formal statement for the record, 
if I could, Madame Chairman.
    Senator Boxer. Without objection, so ordered.
    Mr. Dewey. The central question seems to be: Why is the 
funding under review, particularly after the administration had 
requested $25 million for the program for 2002, and then the 
Foreign Operations Appropriation Act provided $34 million, up 
to $34 million, for UNFPA and, as you mentioned, Madame 
Chairman, the provision of what, aside from Luxembourg, is a 
fairly liberal contribution to UNFPA for the needs of Afghan 
women in the heart of the crisis which is happening in that 
country?
    So I will--in these introductory remarks, I will try to 
address this question of ``Why is there a review after these 
other actions would indicate that there was no problem in going 
ahead with the funding?''
    It seems that the new situation is the--the new situation 
seems to be that the finding of the Population Research 
Institute, which alleged complicity of the UNFPA in a coercive 
family planning program in China, followed in October of last 
year by rebuttal from the UNFPA, and was followed by that by a 
sharp response from Capitol Hill, with a sharp division of 
opinion as to what the true facts are in this case--it seems 
that given this response, this new situation, and particularly 
the sharply divided response from Capitol Hill, where the White 
House and the State Department have heard very detailed and 
sharp replies from both sides of this issue, that no 
responsible person or organization would have the choice but to 
take another thorough look at this funding question based upon 
those circumstances which I just described.
    For a variety of reasons--and the central issue here is 
whether the law, whether the Kemp-Kasten amendment in the 
Foreign Operations Act, is triggered as a result of these 
allegations. That seems to be the central issue. And I will 
just review the Kemp-Kasten amendment language for everyone's 
benefit.
    It prohibits U.S. Government funding to any organization, 
as determined by the President, that supports or participates 
in the management of a program of coercive abortion or 
involuntary sterilization. It seems that with the differences 
that have occurred particularly over the last few weeks on this 
issue as to whether Kemp-Kasten should be invoked do require 
and set out a clear responsibility to review the bidding on 
this issue. And that is what the White House is doing at the 
present time.
    I think that such a high-level review has another benefit 
for the long term. Let us assume, without prejudging what the 
outcome of this review will be, that the United States will 
continue funding of the UNFPA. There is a possibility of 
setting out through this review greater clarity on what would 
constitute true UNFPA independence from a program which is in 
such question, or really is in no question as far as China is 
concerned with its coercive overtones.
    This would seem to be useful in eliminating future 
ambiguity over whether or not Kemp-Kasten would apply. And 
there surely is a need for that. If you look at the past 
administration's determination on Kemp-Kasten, using the same 
set of facts, two different administrations came up with 
different conclusions.
    I think another reason for needing to get such clarity is 
the recent enactment of the Population and Family Planning Law 
by the Peoples' Congress in China at the end of December of 
last year. This is a very ambiguous law that seems to codify 
current practices, especially the one-child policy, with only 
problematical exceptions to that one-child policy.
    An outside evaluation could suggest for UNFPA that an 
appropriate role would be an independent neighborhood watch 
kind of role to deal with reports of abuse and to work to 
change abusive practices in the countryside, as well as the 
ambiguous policy which exists in the capital itself.
    So this kind of independence seems to be needed. It seems, 
without that, we are going to continue to have a chain of 
confusion in determining whether the provisions of the law are 
triggered with respect to U.S. funding. And this is what I hope 
certainly will come out of the review which is now underway.
    With that, I will conclude and be prepared to take your 
questions. Thank you, Madame Chairman.
    Senator Boxer. Thank you.
    [The prepared statement of Mr. Dewey follows:]

  Prepared Statement of Hon. Arthur E. Dewey, Assistant Secretary of 
             State for Population, Refugees, and Migration

    Madam Chairman and members of the Committee, I am pleased to be 
here today to represent the Administration in discussing the United 
Nations Population Fund (UNFPA) and to reaffirm the Administration's 
commitment to international family planning.
    Throughout its more than 30-year history, the U.S. international 
family planning program has had strong support from the American public 
as well as Congress. This program is recognized worldwide as an 
important component of our foreign assistance. The United States 
remains the largest bilateral donor of population assistance in the 
world, with programs in nearly 60 countries. We have also been the 
largest bilateral donor to UNFPA, providing more than $610 million 
since UNFPA was founded in 1968. American generosity over the past 
three decades has enabled couples to choose when and how many children 
to have, enhanced maternal and child health, and enabled parents to 
better provide for their children. As President Bush has said, ``One of 
the best ways to prevent abortion is to provide quality voluntary 
family planning services.'' And we know that reproductive health care 
and family planning saves lives by reducing pregnancy-related deaths 
around the world.
    The Administration's commitment to international family planning 
remains strong, as reflected in the President's FY 2003 budget request 
of $425 million for USAID's population program.
    When President Bush signed into law H.R. 2506, the ``Foreign 
Operations, Export Financing, and Related Programs Appropriations Act, 
2002,'' (Public Law 107-115, January 10, 2002) he stated:

          The Act does not interfere with our policies regarding 
        bilateral international family planning assistance, and ensures 
        that U.S. funds are not made available to organizations 
        supporting or participating in the management of a program of 
        coercive abortion or involuntary sterilization. The Act 
        provides additional discretion to determine the appropriate 
        level of funding for the United Nations Population Fund.

    In particular, because the Act stated that ``not more than $34 
million for fiscal year 2002 shall be made available for the United 
Nations Population Fund,'' the Administration has substantial 
discretion in determining any appropriate level of UNFPA funding, 
within the $34 million cap.
    I know that Secretary Powell has testified before you and your 
colleagues on the good work UNFPA has done in so many areas around the 
world. We support the work UNFPA is doing worldwide to provide safe and 
voluntary family planning, enhance maternal and infant health, and 
prevent the spread of HIV/AIDS.
    Yet, at the same time, we remain mindful of our important 
obligations under the Kemp-Kasten amendment to the annual Foreign 
Operations, Export Financing and Related Programs Appropriations Act, 
which provides that no U.S. funds can go to an organization that 
supports or participates in the management of a program of coercive 
abortion or involuntary sterilization.
    We are particularly attentive to periodic reports of abuse and 
coercion in China's family planning program, and have frequently 
dispatched officers from our embassy or consulates in China to 
investigate the credibility of these reports. Since 1998, when the 
UNFPA Executive Board--of which the U.S. is a member--approved a new 
four-year pilot project in 32 Chinese counties, the U.S. Mission to 
China has continued to monitor UNFPA's work closely.
    Allegations of UNFPA's complicity in coercive family planning 
practices in China have been recently brought to our attention and to 
Congress' attention. And while we are aware of UNFPA's response that it 
is not involved in coercive practices and is, in fact, supporting a 
program that stresses the importance of voluntarism and non-coercion, 
it is incumbent upon us to look further into this matter.
    In closing, let me reiterate this Administration's strong 
commitment to international family planning. As I mentioned, we are, 
and continue to be, the largest bilateral provider of voluntary family 
planning and related primary health care. The President's FY 2003 
budget supports our position as the leading donor.

    Senator Boxer. Do you want to start with questions, 
Senator?
    Senator Brownback. If I could make sure that I understand 
where the administration is, you are just saying you got a 
report--you got conflicting opinions from out on Capitol Hill. 
And so you are saying, ``We need some more time to review 
this,'' is the essence of where the administration is today. Is 
that correct?
    Mr. Dewey. That is exactly right, Senator.
    Senator Brownback.  OK. And then over a period of time, you 
will make your own investigation, you will do your own 
investigation within the administration to determine whether or 
not the Kemp-Kasten is being complied with our not. Is that 
correct?
    Mr. Dewey. The modalities of the review are really out of 
my hands, out of the State Department hands. Those modalities 
are in the White House itself.
    Senator Brownback. Have you had a chance to review, then, 
on the coercive abortion issue and coercive abortion policy, 
whether it exists in China today? You have not personally, nor 
the administration has had a chance to review that issue. Is 
that correct?
    Mr. Dewey. My Bureau has had discussions with China at the 
reinvigorated human rights meeting just last fall where we have 
pressed the issue on making changes in the course of family 
planning practices. As you know, the stated policy of China, 
even though it is a one-child policy, asserts that there is no 
coercion. But the practices seem to be different out in the 
provinces.
    And so we have brought it up in that forum. The Embassy in 
Beijing also engages Chinese officials, particularly the head 
of the State Planning Commission on Family Planning, on this 
very issue. So yes, there is a dialog going on where these 
issues are raised with the appropriate officials.
    Senator Brownback. So you are getting it raised, though--
what I am hearing you say is you are getting it raised to you 
in China. The mission is being--it is being raised there at 
the--that this coercive policy is still taking place, at least 
out in the provinces.
    Mr. Dewey. That is right, yes. These are reports that we 
are getting. And these reports are not denied by Chinese 
officials. They explain them in terms that they cannot control 
all the practices that are going on throughout the country and 
that, of course, they decry those practices where they do 
exist. And they have promised to follow up and to punish the 
offenders, those who are guilty of abuses.
    So this is the line of the government. But our concern is 
that the abuses seem to continue.
    Senator Brownback. Have you had a chance, or has the State 
Department officials had any chance, to have firsthand evidence 
interviewing women that have had coerced abortion or 
sterilizations, and these interviews not be conducted in front 
of Chinese officials?
    Mr. Dewey. I do not have any indication of that or 
recollection of any such interviews.
    Senator Brownback. Of whether or not they have had or have 
not occurred, the interviews----
    Mr. Dewey. No, I am not aware of any.
    Senator Brownback. Interviews that have occurred?
    Mr. Dewey. I am not aware of any.
    Senator Brownback. If I could just request that the 
administration look into these aggressively, because I know 
from my own personal experiences the number of suggestions that 
this is taking place are very high, that coerced abortion is 
occurring, that that continues to be an active, aggressive 
policy in China, that that is taking place, continues to be a 
high level number of those being suggested. To the degree that 
the administration can interview and try to follow into some of 
these rumors or leads to find if they are substantiated or not 
would be a valuable bit of information in this debate.
    I think you are quite wise to hold up on distribution of 
funds until we can get to the bottom of this. I think it would 
be helpful in the exchange and the discussion if the 
administration, when you get a number of these reports to you, 
could start following in to those and see if these are actually 
taking place or not.
    Mr. Dewey. Well, we will certainly take that suggestion 
into account in the course of this review, which is being 
undertaken.
    Senator Brownback. Do you know if China will permit people 
to openly come in and conduct interviews with women who have 
alleged that they have gone through coerced abortion or 
sterilization? It is my understanding they will not.
    Mr. Dewey. I cannot give you a definitive answer on that. I 
know that interviews have occurred, but I am not sure under 
what auspices.
    Senator Brownback. It is my understanding that the 
officials, Chinese officials, will not let those take place and 
have sanctioned the matter. But I do not--I wondered if you had 
a verification of that or not.
    Mr. Dewey. No, I do not. I do not know to what extent that 
has been tested.
    Senator Brownback. Thank you very much.
    Senator Boxer. Thank you very much.
    I just want to make it clear that this hearing is not about 
forced abortion in China. I do not think there is any 
disagreement from anyone that forced, coerced abortion goes 
against a woman's right to choose, in my opinion. And it should 
be condemned, and it is condemned. And that is not what this 
hearing is about. We could have a hearing on that, if the 
members want.
    This is about the UNFPA. And the UNFPA's own guidelines 
prohibit them to be involved with coerced abortions in China or 
anywhere else. I want to make the point clear of what this 
hearing is or is not about. And I have joined with my colleague 
in his pursuit of the truth as far as what goes on in China. He 
has a personal passion about it. And I must tell him that I 
share that passion. Although I may not have a beautiful child 
of Chinese heritage as my own, I share that passion.
    This is about the UNFPA. So I just want to make sure we 
know what the hearing is about.
    I want to say that, just to correct the record, Mr. Dewey, 
you said that Luxembourg gave more than we did to the UNFPA in 
that special drive. Let me name the countries that gave more 
than we did, just so you know: U.K., the Netherlands, Denmark, 
Sweden, Norway, Belgium, and Italy. So I just wanted to make 
that point. We should have done more than $660,000. I am so 
happy we did that. But if I had a chance, I would have helped 
more, because the Afghan people deserved it.
    But moving on, just to make sure, Mr. Dewey--and I 
appreciate your remarks, and I know from the tenor of your 
remarks, I hope, that maybe an investigation can yield us a 
good outcome. And I certainly will work with you as hard as I 
can, if you need me to help you get facts from the field, that 
these funds will be released.
    I know I have hope, given the tenor of your statement, that 
you are investigating this, and you feel this is your duty. And 
I hope that you will investigate it, and I hope you will do it 
soon. And I hope you release these funds.
    Frankly, the issue of next year's funds, which there are 
not any in the budget, is another matter. I do not want to get 
into that. That is a travesty from my personal point of view. 
But right now I am looking at the funds that were duly 
appropriated. As you pointed out, we appropriated more funds in 
a bipartisan way in this Congress than the administration asked 
for the last year. And those funds are sitting there locked up.
    So I want to know: Have you looked over the UNFPA's 
guidelines, their program of action, that they adopted in the 
1994 International Conference on Population and Development, 
which states in no case should abortion be promoted as a method 
of family planning, and ``coercion has no part to play in 
population and development programs''?
    Have you looked at those guidelines? Are you familiar with 
those guidelines?
    Mr. Dewey. I have indeed looked at them, and I am familiar 
with them. And I believe that UNFPA sincerely believes that 
that is their policy and that they are practicing that policy 
of not condoning coercive methods of family planning.
    Senator Boxer. Well, do you think somehow they may be 
duped? Is that what is going on? Who is duping them and taking 
your money and doing the wrong thing with it? Who might be 
duping them?
    Mr. Dewey. It ties back to the language of Kemp-Kasten as 
to how closely--how close is the support? What does support 
consist of, to a program, which we know in China does include 
coercive family planning measures? That seems to be the 
ambiguity, which, as I said, I am hoping that a review can 
clear up.
    Senator Boxer. Are you aware that there was a review of 
just this issue by an international review team led by 
Ambassador Nicolaas Biegman, who is here today? Have you seen 
his review?
    Mr. Dewey. I have, Madame Chairman. I have seen that 
review.
    Senator Boxer. Do you have respect for the work that he's--
--
    Mr. Dewey. Yes, and I have respect for his judgment and the 
work they did. I would say that the findings of that rebuttal 
were no more dispositive, however, than the findings of PRI 
were definitive in stating that Kemp-Kasten ought to be 
invoked.
    Senator Boxer. OK. Well, we are going to find out, because 
we have the Ambassador here. That is not my understanding, but 
we will see.
    Have you seen the State Department's human rights report on 
this subject?
    Mr. Dewey. The State Department human rights report will be 
released this evening or tomorrow on this subject. So it has 
not been released yet.
    Senator Boxer. Well, we are talking about last year's. Hang 
on a second.
    [Pause.]
    Senator Boxer. Well, I am going to put into the record, 
from last year's human rights report, information which looks 
like these are moving in the right direction.
    [The following information was subsequently supplied:]

            Country Reports on Human Rights Practices--2000

released by the bureau of democracy, human rights, and labor--february 
                                23, 2001
    In late 1998, the United Nations Population Fund (UNFPA) on an 
experimental basis launched a 4-year pilot project in 32 counties to 
address family planning and reproductive health issues solely through 
the use of voluntary measures, emphasizing education, improved 
reproductive health services, and economic development. The SFPC worked 
closely with the UNFPA to prepare informational materials and to 
provide training for officials and the general public in the project 
counties. Although it was still too early for an overall assessment of 
this program, visits to selected counties by foreign diplomats indicate 
that progress in implementing the program has been mixed. Some counties 
have made appreciable progress in implementing the program, while 
others have made relatively little. Notably, some counties have 
informed the general public about the UNFPA program and have eliminated 
the system of strict, government-assigned birth quotas (allowing 
couples to choose without authorization when to have their first 
child); other counties have not yet done so, or have only begun to do 
so. In Sichuan Province a couple can legally have a second child 
without applying for permission if they meet all the requirements; 
however, regulations and implementation vary from town to town. The 
Government has welcomed foreign delegations to inspect the UNFPA 
project counties. Although access to these areas has varied from 
province to province, foreign diplomats visited several counties during 
the year.

    Senator Boxer. I wonder if you are aware that the same 
group that wrote--that gave the information for the Pakistani 
news people, that said the UNFPA was involved with doing 
terrible things in terms of promoting abortion, do you know 
what that same group said about UNFPA that they had worked 
closely with Slobodan Milosevic to target Kosovars and accuse 
them of genocide in Kosovo?
    I wonder if you are aware. It seems like this particular 
group is making these charges about UNFPA continually. Are you 
aware of that?
    Mr. Dewey. Yes, I am, Madame Chairman. I am aware of that. 
And I know that that has been used as a way to get at the 
credibility of that particular team.
    Senator Boxer. Well, yes. And I think it is important 
because we need to know the track record of people who seem to 
be so powerful that they could prevent thousands and thousands 
of women from getting help. And what we went through to show 
you what $34 million will do, this is what I want to leave you 
with, because I know that you are part of a team here. And I do 
not want to be unduly harsh on you at all. First of all, 
because it would not be fair. Second of all, because I hope you 
are going to release the money. And I want you to come away 
from this hearing with good feelings about that, because if you 
do that, you are going to save lives. You are not going to 
cause injury or harm.
    This good you are going to do with the $34 million, you 
will prevent 2 million unwanted pregnancies, nearly 800,000 
induced abortions, 4,700 maternal deaths, 60,000 cases of 
serious maternal illness, and over 77,000 infant and child 
deaths.
    So, Mr. Dewey, this $34 million in the scheme of our budget 
is not terribly large, as you well know, in the numbers that we 
deal with. But when you apply it to real human beings, it does 
a lot of good. I hope that your review goes well and quickly 
and that you find, in effect, we will save lives by releasing 
these funds.
    In particular, I hope you will keep the picture of the 
Afghan women in front of your mind, because we made this 
promise. And the administration worked so hard with me and 
Senator Brownback, as did Kofi Annan, to make sure we had women 
in the Afghan transitional government there overseeing health, 
making sure that women get the help they need. But they are so 
short of funding. And this means a tremendous amount.
    Yes, other countries stepped up to the plate. But I would 
be ashamed if we did not step up to the plate, because I would 
view it as a big mistake.
    Again, coerced abortion in China or anywhere else is 
deplorable. It has been deplored by this Congress and everyone. 
It is deplored by the UNFPA in their own words. And we cannot 
use our money in any way for abortion, coerced or otherwise. 
That has been in place for a long time.
    And I just, you know, hope--my colleague and I come after 
it in a different way. He looks at holding back the money as a 
way to save life. And I look at it as harming life and causing 
death. You know, someone will judge who is right and who is 
wrong. Right now, you are one of the judges.
    And I thank you very much for coming. And I hope you could 
stay and listen to the debate. If not, we will send you a 
transcript, because I know you are busy and have a lot to do. 
We thank you for taking the time to appear before the 
committee.
    Mr. Dewey. Thank you very much, Madame Chairman.
    Senator Boxer. Thank you so much, Mr. Dewey.
    Now we will call for our second panel, the Honorable 
Nicolaas Biegman, former Ambassador of the Netherlands to NATO; 
Mrs. Phyllis Oakley, former Assistant Secretary of State for 
Intelligence and Research, also former Assistant Secretary of 
State for Population, Refugees, and Migration, and adjunct 
professor at Johns Hopkins University, Washington, DC; and Ms. 
Josephine Guy, director of Governmental Affairs, America 21, 
from Louisville, Kentucky; Dr. Nicholas Eberstadt, the Henry 
Wendt Chair in Political Economy, American Enterprise 
Institute, Washington, DC.
    So if you all would take your chairs as soon as our 
wonderful staff has provided your nameplates, that would be 
great.
    Now, what we are going to do is we are going to start with 
you, Ms. Oakley, if you want to just come up. We would ask the 
others to please take a chair, if you would do so. Thank you.
    We are going to use the clock. I think we are going to give 
each of you--did you prepare 5 minutes? OK; we will put 6 
minutes up for you. And that would give you an extra minute in 
case you want to take a breath along the way. So we are going 
to go this way, this way, this way, this way, right down the 
row.
    And we will start with you, Mrs. Oakley, and thank you very 
much for being here.

STATEMENT OF MRS. PHYLLIS E. OAKLEY, FORMER ASSISTANT SECRETARY 
   OF STATE FOR INTELLIGENCE AND RESEARCH; FORMER ASSISTANT 
  SECRETARY OF STATE FOR POPULATION, REFUGEES, AND MIGRATION; 
  ADJUNCT PROFESSOR, JOHNS HOPKINS UNIVERSITY, WASHINGTON, DC

    Ms. Oakley. Thank you, Senator. In contrast to my 
successor, Gene Dewey, I am delighted to be here. I have 
written testimony that I will submit for the record. And I 
would like, in the interest of time, to simply address two 
other points.
    Two weeks ago, I returned from a 10-day trip to Ghana 
wearing one of my former State Department hats. And I was doing 
programs on media-government relations in a democracy for the 
U.S. Embassy. On Saturday, my day off, I was able to visit 
something organized by the African Youth Alliance made up of 
the U.N. Population Fund Path and Pathfinder. And it is an AIDS 
prevention program for adolescents.
    The clinic does some testing and counseling but is mainly 
focusing on education among young people. They are using social 
groups, videos, and an Internet facility to reach the young 
people of one particular sprawling and crowded area of Accra. 
It is very impressive, particularly the enthusiasm and the 
commitment of the young and in charge and the doctor.
    And I am convinced that this type of outreach is absolutely 
essential in getting control of the spread of AIDS. In talking 
about their future, they do not want a larger or a grander 
center. What they want is to replicate that kind of thing 
around the country. And I might add that the AID mission of the 
embassy, working with a lot of other groups, has plastered the 
city of Accra, every bus, SUV, car, chimney, whatever, with a 
yellow slogan. And it says, ``Don't forget your ABCs: Abstain, 
be faithful, use condoms.'' The ABCs are taking over there. And 
I thought it was quite a terrific message.
    Now I would like to say something about Afghanistan, 
because I dealt with Afghanistan for 6 years. I want to show 
you, Senators, what a safe delivery kit looks like. This is a 
U.N. Population Fund safe delivery kit. There is a batch number 
on it, a bar of soap, a razor, a surgical blade, umbilical 
tape, plastic sheeting, and a gauze bandage.
    I was very interested to hear about this report of other 
safe delivery kits that would include things involved in 
abortion. I certainly hope you will be able to see an authentic 
copy or an authentic safe delivery kit like that that was 
reported. I am absolutely amazed and doubtful that it exists.
     Dr. Eberstadt. If I could, Madame Chairman, I would like 
to give you a copy of an----
    Senator Boxer. Well, if we could just--could we just stop 
the time?
    Dr. Eberstadt [continuing]. Article. And then you could 
look at it.
    Mrs. Oakley. Yes.
    Dr. Eberstadt. And then you would have a copy of this 
article. And then you can look at it. And maybe we can comment 
during the question and----
    Senator Boxer. Yes.
    Mrs. Oakley. But I think we would all like to see such a 
kit.
    Let me just say that I think everybody knows from the 
papers and television what the situation of Afghan women is 
like and how desperately poor they are. I was so impressed with 
that article about the hospital. And I love the name, the 52 
Beds Clinic. I think that we have to remember that those are 
the lucky women. Those are the women who get to some sort of 
facility.
    I have been in too many refugee camps, too many places 
where perhaps the facility was a tent. And these things did not 
exist. I cannot tell you how important they are.
    I also want to add to what Senator Boxer said about the 
potential happy ending for this story about the 52 Beds Clinic, 
that in early March, a UNFPA-chartered cargo jet loaded with 
medical supplies is due to arrive in Kabul from Copenhagen. And 
with the support of the Government of Italy, the UNFPA is 
planning a complete renovation of that clinic, along with 
others in Kabul.
    UNFPA has been asked by the new woman Director of Public 
Health to help across the board with these programs because, 
again, it may be bad enough for the women in Kabul, but just 
think of what it is like for the people outside the country.
    Anyway, I just wanted to comment on these two very 
personal, very real experiences I have had. I have seen the 
positive results of UNFPA and their activities. I certainly 
urge, not only from my experience in the government but from my 
role as a world citizen, as a professor, that the funding be 
released.
    Let me stop there. And I will be glad to take your 
questions. Thank you.
    Senator Boxer. Thank you so very much.
    [The prepared statement of Mrs. Oakley follows:]

 Prepared Statement of Hon. Phyllis Oakley, former Assistant Secretary 
 of State for Intelligence and Research and former Assistant Secretary 
 of State for Population, Refugees, and Migration; Adjunct Professor, 
                        Johns Hopkins University

    Good afternoon to you Madame Chairman and Members of the 
Subcommittee. As most members of this Subcommittee may know, I served 
in the United States Foreign Service for most of my professional life, 
including stints as desk officer for Afghanistan, as Deputy 
Spokesperson under Secretary George Schultz, as Assistant Secretary for 
Population, Refugees, and Migration and my final assignment as the 
Department's Assistant Secretary for Intelligence and Research. During 
the past several years of my retirement, I have been teaching at Mt. 
Holyoke in Massachusetts and on Massachusetts Avenue at the John's 
Hopkins School of Advanced International Studies. I also serve on the 
boards of several organizations concerned with education and foreign 
affairs, including, for the past year, the Board of the U.S. Committee 
for UNFPA. As always, it is a pleasure to be with you today and I 
welcome the opportunity to share with you my perspectives on 
international family planning issues and the work of the United Nations 
Population Fund.
    I have been engaged in foreign policy work longer than I might like 
to admit--over 40 years. So much has changed in that time. I was 
involved when the Cold War began in earnest, and was there when the 
Berlin Wall came down. I experienced the transformation of that bipolar 
world and the emergence of an age of increasing interdependence, where 
issues, challenges, opportunities and threats transcend national 
boundaries. Economists have talked of this transformation in terms of 
the era of globalization. For those of us working on the front lines of 
diplomacy to protect American interests, we have seen this 
transformation in terms of an altered landscape of security threats and 
challenges. Issues like international crime, the proliferation of 
weapons of mass destruction, growing numbers of refugees, global 
environmental challenges, and, of course, the emergence of worldwide 
networks of terror--these have all emerged from the sidelines to the 
mainstream of American foreign policy.
    My experience in the Foreign Service has taught me many things. And 
one of the most important is that rapid population growth and 
associated poverty are dangerous, crosscutting trends that must be 
addressed through international cooperation. To ignore them is to 
ignore some of the driving forces underlying the global issues that are 
so prominent today. Mine is the first--and hopefully it will be the 
only--generation to have lived through more than a tripling of global 
population. When I was born, there were about 2 billion people on the 
Earth, today there are more than 6. That is a whole lot of change--and 
it is profound. Today, there are 2 billion people who live on less than 
$2 a day.
    Now, I am no expert on whether the Earth's environmental systems 
can sustain that kind of growth or the demand for resources associated 
with 6 or 7 or 8 billion people. But what I can tell you is this:

          First, that population growth has made the world a much more 
        complicated place--exponentially so. Demographic forces are not 
        divorced from issues of state power, and help to shape not only 
        our bilateral relations with other nations, but also our global 
        priorities.

          Second, I have learned--because I have seen it--that rapid 
        population growth and persistent, jaw-dropping poverty are a 
        dangerous mix. That was true in Pakistan when I lived there; in 
        Zaire; it was true in Afghanistan when I was a desk officer; it 
        was true in the dreadful refugee camps that I visited after the 
        genocide in Rwanda; and it is true in so many places today.

    In the early 1990s, I was working on Humanitarian Assistance 
programs on the border of Afghanistan and Pakistan. The discrepancy 
between rapid population growth and the ability of governments to 
respond was striking. In overstretched infrastructure, heroic efforts 
were made to try and get people into school. Those lucky enough to get 
through school were rudely awakened by the reality that the society 
could not produce enough jobs to keep up with growing numbers. There is 
little surprise, then, that strident, fundamentalist religious schools 
became popular with the uneducated and the underemployed.
    I don't want to belabor the point, suffice it to say that my own 
experience has led me to the belief that rapid population growth should 
be and must be considered as an important factor influencing America's 
engagement around the world.
    The question is, what can we do about it? I understand that nobody 
wants to talk about these issues, involving as they do sensitive 
personal, social and religious issues. But we can't ignore them, so we 
have to talk about them. That is one of the reasons why we are 
fortunate to have the United Nations Population Fund as an institution 
and forum for confronting these issues in a civilized, adult manner.
    I was somewhat familiar with UNFPA's work for many years, but 
learned much more about them when I became Assistant Secretary for the 
Bureau of Population, Refugees, and Migration. At that time, UNFPA was 
coordinating preparations for the International Conference on 
Population and Development, which was held in Cairo in 1994. And they 
did a wonderful job, not only in the logistical preparations for that 
conference, but in working with the world to create a remarkable new 
vision for international population policy.
    They listened to the world--hearing from representatives of all 
regions, diverse religious and cultural backgrounds, NGOs and 
individuals from all over the world. Because they listened, the bedrock 
principle of the action plan reached at the ICPD is that population 
policies should be pursued with full respect for not only national 
sovereignty, but also diverse religious and ethical values and in 
accordance with universally recognized human rights.
    They moved the world away from a fixation on the number of people 
on the planet and towards a needs-based approach--focusing on the fact 
that if people, especially women, have access to family planning and 
other health services, if they are educated, if they have economic 
opportunities, if human rights are respected, and if men will recognize 
their responsibilities for homelife, if all these conditions are met, 
the global population will stabilize on its own, and we need not focus 
on numbers.
    This new approach, forged through UNFPA leadership and agreed at 
the ICPD, was all aimed at addressing concerns--held especially by 
women and NGOs around the world about the use of demographic targets 
and certain situations in which coercion was encouraged. This is a very 
important point Madame Chairman, and I want to underscore it. The 
United Nations Population Fund was the leading advocate, the force that 
moved international population policy away from numeric targets and 
other tactics that could encourage coercion. UNFPA championed a human 
rights based approach to population policy.
    All of us who were at Cairo recognized what a wonderful achievement 
this was. And all of us on the U.S. delegation were thrilled to be a 
part of it.
    After Cairo, I became more and more familiar with UNFPA's work in 
the field. Not only its ongoing efforts in more than 140 countries 
around the world. But especially its efforts in areas that overlapped 
with other responsibilities I carried, particularly in crisis 
situations in refugee camps around the world.
    In Goma, I saw how important UNFPA's work was in providing 
emergency supplies for pregnant women. You all will recall the honor of 
those vast numbers moving so quickly, the outbreak of cholera, camps 
organized amazingly overnight when hundreds of thousands of people fled 
the massacres occurring in Rwanda and crossed over into what was then 
Zaire. These were difficult and dangerous situations. Ethnic tensions 
were high. Thousands of women had been raped as an instrument of 
terror. Gangs were commonplace and security in the camps almost non-
existant in the beginning because the Government of Zaire could supply 
none. In the midst of all of this, brave international public servants 
from UNFPA worked tirelessly to provide the most basic supplies so that 
pregnant women would have a chance to deliver a child safely.
    They supplied soap, plastic sheeting, a razor blade to cut the 
umbilical cord, sutures for complications, rape treatment kits and 
basic contraceptive supplies.
    In Kosovo, several years later, UNFPA was there as part of the 
United Nations humanitarian response team when hundreds of thousands of 
Kosovars fled mass killings and the systematic use of rape. Again, 
brave international civil servants responded and helped to provide 
emergency supplies and such things as underwear for girls and women.
    For their efforts, a handful of organizations, including the 
Population Research Institute, chose to go on the attack, going so far 
as to make the outrageous accusation that UNFPA was conspiring with Mr. 
Milosevic in a campaign of genocide.
    Those same organizations have been giving UNFPA a hard time over 
Afghanistan, where the Fund is again working to meet the needs of those 
displaced by 20 years of civil war and the welcome efforts of the 
United States and others to rid that country of terrorists and the 
harsh rule of the Taliban.
    I have been to Afghan refugee camps and I have seen UNFPA's 
contribution to international humanitarian response efforts. I wish 
that all those who take potshots at the UN, who think that 
international cooperation is about bloated bureaucracy, or who 
cavalierly attack UNFPA could experience these heart-rending 
situations. If they did, they would have their hats off to these brave 
individuals and the hard-working organizations they represent. And if I 
have not been clear enough, let me just say that I resent and take 
great offense to those who have attempted to ruin the reputation of 
UNFPA and international family planning in such a reckless fashion.
    Nowhere has this been more evident than in the endless campaign 
that has been waged to suggest that UNFPA is complicit in the very 
serious and disturbing violations of human rights that occur in China. 
As a woman, and one who has seen the anomalous gender ratios in China, 
I am not about to defend China's one-child policy, the incidence of 
coercion or female infanticide. The facts are pretty clear, and very 
upsetting.
    It is equally clear that UNFPA has absolutely nothing to do with 
these practices, nor does the United States contribution to UNFPA. U.S. 
law has prevented even one cent of the U.S. contribution to UNFPA from 
being spent in China for years. More fundamentally, the clear evidence 
is that the UN Population Fund is aware of the problems in China's 
program and that it is attempting to work with the Chinese to 
demonstrate the greater wisdom and effectiveness of voluntary, non-
coercive population policies. Reflecting the consensus it championed 
and forged at the Cairo Conference, UNFPA has insisted that Chinese 
authorities agree to discontinue to the use of targets, quotas and 
other coercive means in each of the 32 counties in which it is 
providing assistance to the Chinese. This does not mean that UNFPA's 
staff of four people in China has taken over China's program--it means 
that UNFPA is having a positive influence. And that fact is being born 
out in the reporting of our own foreign service officers.
    Last year's Human Rights report--not known for pulling punches--
found clear evidence of UNFPA's positive influence in China. Let just 
quote a few passages:

          600 counties covering about half the country's population 
        have adopted more liberal (population) policies.

          The Government was beginning to relax its policies in the 
        cities. Other jurisdictions, such as Minglan village in Yandu 
        County, have reportedly followed the earlier example of Beijing 
        and other cities, abolishing birth permits and allowing couples 
        to decide on their own when to have a baby.

    The evidence from others, including the many monitoring teams that 
have been sent to observe progress of the UNFPA program echo these 
sentiments.
    There is only one place in the world where UNFPA's activities are 
questioned--and that is right here in Washington. I was the relevant 
Assistant Secretary of State for three years. During that time, I have 
to tell you that never, not once, did I hear from another government, 
from my forceful colleagues in the human rights bureau, from the 
intelligence community, or from any reputable human rights organization 
expressing concerns about UNFPA's work in China or anywhere else. Not 
one cable, not one letter, not one phone call. Nothing.
    Why?
    Because this is only an issue of American domestic politics--not of 
foreign policy or of the actions of an international organization. 
UNFPA is a good organization caught in the vise of American politics. 
That is what makes this issue so sad, so frustrating, so Kafkaesque. 
Hours and hours are wasted at the Department, on the Hill and 
throughout Washington in an annual fight that is based on smear, 
innuendo and hatefulness.
    All of us who have worked on this issue have been tempted to throw 
up our hands, to give up, to become frustrated by the groundless nature 
of this debate. But if it is tempting, it is also wrong.
    For to give up would not only abandon the architecture that has 
been put in place for addressing common global issues, but it would 
also abandon those women and children who depend on UNFPA in refugee 
camps, it would be to give up on the 350 million couples that want to 
plan their families but don't have access to modern family planning 
services, and it would be to abandon those people in China and 
elsewhere who yearn to realize their basic human rights as individuals. 
This is not a debate about what words are put in an appropriations 
bill. This is a fight for the most impoverished and repressed people in 
the world, it is about truthfulness, and it is about American 
leadership on the great issues of this new century unfolding.
    I thank the Subcommittee for inviting me hear today. And I hope 
that you will endeavor with your colleagues to put this issue behind 
us--where it belongs--once and for all.

    Senator Boxer. Mr. Ambassador, please go ahead for 6 
minutes.

STATEMENT OF HON. NICOLAAS H. BIEGMAN, FORMER AMBASSADOR OF THE 
        NETHERLANDS TO NATO, AMSTERDAM, THE NETHERLANDS

    Ambassador Biegman. Madame Chairman, I would like to thank 
you for the opportunity to testify this afternoon on the work 
of the U.N. Population Fund and specifically on its activities 
in China.
    I am truly pleased and honored to share with you what I 
know today.
    Senator Boxer. Can you move closer to the microphone? Thank 
you.
    Ambassador Biegman. Is this all right?
    Senator Boxer. Much better. Thank you very much. I just 
want you to be heard.
    Ambassador Biegman. So do I.
    Before I start, let me tell you just a little about myself. 
I served my country, the Netherlands, for 38 years in the 
Foreign Service. I was Ambassador to Egypt, to the United 
Nations and, until recently, to NATO. And I managed our foreign 
assistance program between 1988 and 1992.
    As U.N. Ambassador, I was very actively involved in the 
International Conference on Population Development in Cairo in 
1994. I was vice-chair of the preparatory process, chairing 
many sessions of the main committee.
    UNFPA is the main international agency working on the 
implementation of the program of action of which you have 
cited, already quoted some of the principles. It is committed 
to a range of internationally agreed human rights standards, 
UNFPA is, including the right of all couples and individuals to 
decide freely and responsibly the number, spacing, and timing 
of their children; to have the information and means to do so; 
and to make decisions free of discrimination, coercion, and 
violence.
    The UNFPA provides financial, technical, and program 
assistance to 140 governments to help them carry out effective 
maternal and child health, reproductive health, and voluntary 
family planning programs. UNFPA is active in HIV/AIDS education 
and prevention. And all these activities are watched very 
closely by an executive board composed of representatives from 
36 governments among which the United States is an active and 
longstanding member.
    The U.N. Population Fund is prohibited from providing 
support for abortion or abortion-related activities anywhere in 
the world. That has been said already, and I do not have to 
repeat it. It is one of these policies which have been spelled 
explicitly out in the program of action, which I was proud to 
help negotiate.
    So in this context I was asked to lead this independent 
international review team to investigate allegations linking 
the U.N. Population Fund to human rights abuses in China, 
allegations which were brought forward by a group called the 
Population Research Institute at the hearing before the House 
Committee in October 2001.
    I would like to state for the record that I accepted this 
invitation with an open mind, an open mind. I am familiar with 
the U.N. Population Fund. I believe that they have been 
extremely helpful in the developing world. But I know that 
everyone knows that the possibility for abuses exists and that 
it must be vigilantly guarded against. So I traveled to China 
with my team, prepared to uncover and weigh the facts 
impartially and to respond fairly and accurately to whatever we 
might find.
    So the investigation in China started on October 22 of last 
year and lasted a total of 5 days. Apart from myself, the team 
consisted of diplomats, all female, from the Missions at the 
U.N. of Honduras, the Czech Republic, and Botswana. To aid our 
investigation and help our departure, we requested some 
specific information from the organization making the 
allegation, especially about the places where they--which they 
had visited in the county of Sihui. Unfortunately, they were 
either unwilling or unable to provide a response.
    So our job was to look for evidence that UNFPA is linked to 
a coercive family planning policy in China. I was not asked to 
simply look for human rights abuses. The U.S. State Department 
documents an extensive array of human rights abuses in its 
annual human rights report for China. These allegations of 
abuse are horrendous and should be addressed as forcefully as 
possible.
    The mission I led had a single goal, to see if we could 
uncover any credible evidence that the U.N. Population Fund 
violated the human rights of Chinese citizens or was complicit 
in any way in helping the Chinese Government violate the human 
rights of its citizens.
    During our 5-day investigation in China, we met with 
officials for UNFPA and the Chinese Government and with 
officials from the U.S. Embassy. We visited a total of seven 
family planning clinics, service centers and hospitals in the 
county from which the allegations stemmed, and also in another 
county that receives funding from UNFPA. As far as time 
permitted, we interviewed Chinese citizens at random, on the 
street, in family planning and mother and child health clinics, 
in villages, using two independent interpreters and without 
Chinese Government officials present.
    Senator Boxer. Mr. Biegman, I will give you another minute. 
I will give each of the next speakers an additional minute.
    Ambassador Biegman. Another minute, Madame. That is very 
short. But it is safe to say----
    Senator Boxer. Well, we could be here a long time. But what 
I need you to do is summarize, and then we will have questions.
    Ambassador Biegman. Very well.
    OK. In short, let me say that we found absolutely no 
evidence that the U.N. Population Fund supports coercive family 
planning practices in China or violates the human rights of the 
Chinese in any way. We found that the quality of care had 
improved in the counties we visited, which coincided with the 
findings of the journalist of the Wall Street Journal, which 
were published in the Wall Street Journal in February, on 
February 2, 2001.
    We did find that the UNFPA is a positive force for change 
in China away from the alleged abuses, as you will find in the 
PRI report, and toward a client-based voluntary approach. The 
practice followed in the pilot counties where UNFPA is working, 
32 of them has been followed up now in 600 of the about 1,700, 
I think, counties in China. It is meant to be followed in the 
rest of the country as well.
    So let me conclude, Madame Chairman, by saying that the 
U.N. Population Fund is doing what needs to be done in China, 
as far as it can, spending $3.2 million a year in a country of 
1.3 billion people.
    Are the results perfect? No. But is the effort worth it? I 
think the answer to that would be a resounding yes. And I think 
the worst the UNFPA could do is take the easy way and walk out 
of that country.
    Thank you very much.
    Senator Boxer. Well, thank you, Mr. Ambassador, very much.
    [The prepared statement of Ambassador Biegman follows:]

Prepared Statement of Dr. Nicolaas H. Biegman, Former Ambassador of the 
                          Netherlands to NATO

    Madame Chairman, members of the Subcommittee, I would like to thank 
you for the opportunity to testify this afternoon on the work of the 
United Nations Population Fund and specifically on its activities in 
China. I am truly pleased and honored to share what I know with you 
today.
    Before I start, let me tell you a little about myself I served my 
country the Netherlands for 38 years in the Foreign Service. Among many 
postings, I have been Ambassador to the United Nations and to NATO. 
From 1988 to 1992, I was the Director-General for Netherland's 
International Cooperation, managing and overseeing our foreign 
assistance program.
    While I knew the work of the United Nations Population Fund before 
I became Ambassador to the UN in 1992, I became better acquainted with 
UNFPA through my active involvement in the 1994 lnternational 
Conference on Population and Development. I was the Vice-Chair of the 
preparatory process and I chaired many sessions of the Main Committee 
at the Conference itself in Cairo, where the last-minute negotiations 
took place. After much push and pull, 179 governments, including the 
United States, approved a program of action, which continues to guide 
the work of United Nations Population Fund to this day.
    The United Nations Population Fund plays a very specific role in 
developing countries. It helps them to provide reproductive health and 
family planning services on the basis of informed individual decision. 
This is the central guiding principle of the Programme of Action of the 
1994 Cairo Conference, which, in effect, shifted the focus of 
population policy away from achieving demographic targets and quotas to 
promoting human rights and meeting the individual needs of women and 
men.
    Since the United Nations Population Fund is guided by and promotes 
the Programme of Action, it is committed to a range of internationally 
agreed human rights standards, including the right of all couples and 
individuals to decide freely and responsibly the number, spacing and 
timing of their children; to have the information and means to do so; 
and to make decisions concerning reproduction free of discrimination, 
coercion and violence. The ICPD Program of Action also states, and I 
quote: ``In no case should abortion be promoted as a method of family 
planning.''
    The countries that provide funding to the United Nations Population 
Fund, including the United States, insist that UNFPA follow these 
principles and that it carefully monitor its activities to ensure that 
all activities are not only in line with the ICPD Programme of Action, 
but that they are producing positive results. In the case of the United 
States, its contributions are kept in a segregated account and not one 
cent of the U.S. contribution to UNFPA is spent in China.
    UNFPA provides financial, technical and program assistance to 140 
governments to help them carry out effective maternal and child health, 
reproductive health, and voluntary family planning programs. In recent 
years, HIV/AIDS education and prevention has also become an important 
component of UNFPA's programs in many countries. All of the activities 
of the UN Population Fund are watched very closely by its Executive 
Board, which is composed of representatives from 36 governments. The 
United States is an active and longstanding Board member.
    The involvement of the United Nations Population Fund in any 
country is based on a written agreement between UNFPA and the 
government that must meet the internationally agreed standards and 
principles of the Cairo Conference. These country work plans are 
carefully reviewed and approved by the intergovernmental Executive 
Board to ensure that they make efficient use of scarce resources to 
meet the pressing needs of recipient countries, and that they comply 
with the strict standards and policies that the world's governments and 
the Executive Board have set for UNFPA.
    The United Nations Population Fund is prohibited from providing 
support for abortions or abortion-related activities anywhere in the 
world. Written policy clearly states that the Fund is ``not to provide 
assistance for abortion, abortion services, or abortion-related 
equipment and supplies as a method of family planning.'' The Fund is 
also prohibited from promoting or providing support for involuntary 
sterilization or coercive practices of any kind. All of these 
principles and policies are spelled out explicitly in the Cairo 
Programme of Action and I vividly remember the negotiations that led to 
their final approval.
    It is within this context that I was asked by the UN Population 
Fund to lead an independent international review team to investigate 
allegations linking the UN Population Fund to human rights abuses in 
China. The crux of these allegations is whether UNFPA is violating its 
commitments under the Programme of Action of the 1994 International 
Conference on Population and Development and acting directly against 
the express wishes of its intergovernmental Executive Board and its 
donors, including the United States.
    The allegations were brought forward by the group Population 
Research Institute at a hearing before the House Committee on Foreign 
Relations on October 17, 2001. They alleged that abuses had taken place 
by family planning workers in one of the counties in China that 
receives assistance from the UN Population Fund.
    I would like to state for the record that I accept this invitation 
with an open mind.
    Although I am familiar with the UN Population Fund and believe that 
its work has, on balance, been very helpful in the developing world, 
everyone who works on these types of issues understands that the 
possibility for abuse exists and must be vigilantly guarded against. I 
traveled to China prepared to uncover and weigh the facts impartially 
and to respond fairly and accurately to whatever I might find. I also 
believe that the delegation that accompanied me was open-minded and 
quite ready and able to identify any and all possible complicity by 
UNFPA in violating human rights.
    Our investigation in China began on October 22, 2001 and lasted a 
total of five days. I was accompanied by Ms. Noemi Ruth Espinoza-
Madrid, the Deputy Ambassador of Honduras to the United Nations; Ms. 
Jana Simonova, Minister Counsellor of the Czech Mission to the United 
Nations, and Emolemo Morake, First Secretary of the Botswana Mission to 
the United Nations.
    In preparation for this mission we endeavored to collect as much 
information as we could about the specific allegations that had been 
brought forward about the UNFPA program in China. To aid our 
investigation, we requested specific information from the organization 
making the allegations via a direct telephone conversation and also 
through a written statement that they requested. Unfortunately, they 
were either unwilling or unable to provide a response, so we had to 
rely upon the evidence and allegations made at the October 17th 
hearing.
    I also entered this mission with a very clear view of what my job 
was. I was asked to look for evidence that UNFPA is linked to a 
coercive family planning policy in China. I was not asked to simply 
look for human rights abuses. The U.S. State Department documents an 
extensive array of human rights abuses in its annual Human Rights 
Report for China. These allegations of abuse are horrendous and should 
be addressed as forcefully as possible. The mission I led had a single 
goal: to see if we could uncover any credible evidence that the UN 
Population Fund violated the human rights of Chinese citizens or was 
complicit in any way in helping the Chinese Government violate the 
human rights of its citizens.
    Our investigation found absolutely no evidence that the UN 
Population Fund supports coercive family planning practices in China or 
violates the human rights of Chinese people in any way. After we 
returned, we prepared a detailed report of our activities and findings, 
which is publicly available and I believe the members of the 
Subcommittee have copies of this report.
    During our five-day investigation in China, we met with officials 
from UNFPA and the Chinese government, and with officials from the 
United States Embassy. We also visited a total of seven family planning 
clinics, service centers and hospitals in the county from which the 
allegations stemmed and also in another county that receives UNFPA 
funding. As far as time permitted, we interviewed Chinese citizens at 
random--on the street, in family planning and mother and child health 
clinics, in villages--using two independent interpreters and without 
any Chinese government officials present. Our random interviews with 
people on the street included over three hours of discussions.
    Responses varied, but generally people believed that family 
planning policy in their area had been relaxed considerably in recent 
years and that the quality of care had improved. No one expressed any 
grievances or complaints or knew of any abuses in recent years. Such 
abuses had occurred in the past, they said, but not in the present.
    The team also asked nearly every government official and family 
planning/reproductive health service provider whether they knew of 
recent abuses. None said he did. The team also asked these people if 
such abuses were possible. They all said yes, such abuses were 
possible, but that those responsible would be punished in accordance 
with the severity of the abuse because Chinese law now forbids such 
abuses. I took this to be a very positive sign.
    Madame Chairman, our goal was to uncover the truth, and to 
determine if the reported abuses are true. But in some cases it became 
quickly apparent that the allegations were simply wrong. For example, 
the desk that supposedly comprised the UNFPA office in Sihui County 
that was constantly referred to in the testimony before the House 
Committee simply does not exist. That purported UNFPA office, which 
formed a central part of the testimony of the Population Research 
Institute, is a complete and utter fabrication. UNFPA has no offices in 
China outside Beijing.
    Now that I have told you what we did not find, let me tell you what 
we did find.
    Our investigation found that the UN Population Fund's program in 
China, which took two years to establish, appears to be playing a 
positive and catalytic role in the reform of reproductive health 
services--away from an administrative approach to a client-oriented 
approach that promotes informed choice of contraceptive methods through 
information, education and counseling.
    Voluntary, quality family planning services are not yet the norm 
throughout China. However, our investigation found that UNFPA's 
program, which operates in a limited number of counties in China, is 
helping to show Chinese officials that voluntary family planning 
programs are the best way to reduce population growth.
    The overall impression that the team came away with was that the 
Chinese approach had changed in the two project counties we visited and 
that the people we met were aware of, and benefiting from, this change.
    It was also apparent that the United Nations Population Fund does 
not support the Chinese Government's one-child policy in name or 
practice and does not take any part in supporting or managing the 
Government's program. In fact, assistance from UNFPA is less than 0.1 
percent of the $3.6 billion annual cost of China's national family 
planning program.
    The UNFPA program, which exists in 32 counties, is meant to 
demonstrate the efficacy of the client-based approach, which is based 
on voluntary family planning, and is purposefully designed to eliminate 
the sort of abuses alleged. The principles and non-coercive policies in 
these demonstration projects are now being adopted by the Chinese 
Government on a larger scale in the future.
    I would like to stress that this view was reinforced by officials 
at the United States Embassy in Beijing who noted during a lengthy 
discussion that UNFPA was definitely a positive force in moving China 
away from precisely the kinds of practices and abuses alleged by the 
Population Research Institute. The U.S. officials further noted that 
the UN Population Fund had had a direct, positive effect on the 
language of new legislation on family planning and reproductive 
health--a point that was reinforced by the Vice-Chairperson of the 
National Congress.
    Madame Chairman, let me be clear: the UNFPA program in China is not 
a panacea, it is not by itself going to change China's policies 
overnight. That is unrealistic and naive. But I would argue it is far 
better for the UNFPA to stay engaged and promote dialogue, better laws 
and better services than taking the easy route and packing their bags. 
The UN Population Fund is doing what needs to be done, one step at a 
time, to assist China in moving away from coercive policies and 
practices. Are the results perfect? No. But is the effort worth it? I 
think the answer to that is an overwhelming yes. The UN Population Fund 
represents the world's interests in helping China to move in a 
direction that is in line with international human rights standards.
    The investigation I led was by no means the first visit by foreign 
government officials to UNFPA project sites in China. As I mentioned 
earlier, the United Nations Population Fund relies on rigorous 
monitoring visits by foreign diplomats, its Beijing-based staff, 
independent experts and delegations of its 36 member intergovernmental 
Executive Board to ensure that human rights standards are maintained. 
Since 1997, nearly 60 diplomats from some 30 countries, including the 
United States, have visited project counties and found no evidence of 
any wrongdoing by the United Nations Population Fund.
    Thank you Madame Chairman and members of the Subcommittee for the 
opportunity to share my knowledge with you today of the UN Population 
Fund and its activities in China. I am pleased to answer any questions 
you may have.

    Senator Boxer. I am very happy that the ranking member has 
arrived. And he and I--he was just at another hearing, playing 
an important role. He is going to get his papers together, his 
thoughts together, listen to the main panelists, and then give 
his opening remarks. And then we will resume the questioning.
    So, Ms. Guy, welcome. And let me--I should reintroduce you, 
since it has been awhile since we have heard about you.
    Ms. Guy is head of Governmental Relations at a non-
governmental organization called America 21. And I understand 
that you also work as a consultant to the Population Research 
Institute.
    Ms. Guy. I do not work as a consultant, no.
    Senator Boxer. Do you have any affiliation with them at 
all?
    Ms. Guy. Officially?
    Senator Boxer. No, not officially.
    Ms. Guy. Yes. I have a relationship with----
    Senator Boxer. OK. As a non-official relationship with the 
Population Research Institute. But I think it is important, 
because we are going to have a discussion about this.
    So, please proceed, Ms. Guy. Welcome. And we have given you 
an extra--you have 7 minutes for your presentation----
    Ms. Guy. Thank you.
    Senator Boxer [continuing]. As does Mr. Eberstadt.

   STATEMENT OF MS. JOSEPHINE GUY, DIRECTOR OF GOVERNMENTAL 
              AFFAIRS, AMERICA 21, LOUISVILLE, KY

    Ms. Guy. I would like to thank each of you for inviting me 
here today. To make this precise, I am simply going to read, so 
we can move along, because we have a video we would like to 
show you.
    Senator Boxer. Sure.
    Ms. Guy. My investigation in China began last September 27, 
2001. With two translators and a photographer, my investigation 
lasted 4 days.
    I volunteered for this assignment and sought no assistance 
from the PRC. Had such assistance been sought, the PRC 
Government would likely have obstructed our investigation or 
influenced the testimonies provided by the victims in this 
UNFPA county program.
    We interviewed over two dozen victims and witnesses of 
coercion in this so-called model county program. During primary 
interviews, some choked back tears as they spoke of the abuse 
they suffered. Others flocked to tell us of their stories of 
coercion.
    Interviews were recorded in notebooks, on audio and 
videotape. Additional photographic evidence was obtained. The 
abuses we documented are recent. They are rampant and 
unrelenting. And they exist in a program where the UNFPA claims 
that women are free to determine the timing and spacing of 
pregnancy.
    On the first day, we interviewed women about a mile from 
the office desk of the UNFPA representative in Sihui, at the 
Dasha Hospital. A 19-year-old there told us she was too young 
to be pregnant, according to the law. While she was receiving a 
non-voluntary abortion in an adjacent room, her friends told us 
that she desired to keep her baby, but she had no choice, since 
the law forbids.
    In a residential area within this UNFPA so-called model 
county program, a woman testified that she became pregnant 
despite an earlier attempt by family planning officials to 
forcibly sterilize her. She was forcibly sterilized a second 
time. Had she refused, she told us on videotape, family 
planning crews would have destroyed her home.
    We asked, ``What happens if you want to give birth to 
another child? Would someone come and take you in by force for 
an abortion?''
    She responded, ``Yes.''
    ``And if you don't go?'' we asked.
    ``They would tear down my house,'' she said, adding ``Right 
now things are very strict.''
    We were told that many women hide their pregnancy so they 
can give birth to a child they desire and escape retribution 
from officials.
    We asked a group of women in another residential area 
within this UNFPA county program about 5 miles from the Sihui 
Office of Family Planning, ``Do you know of anyone whose houses 
have been destroy for not following an order to have an 
abortion?''
    ``Yes, many,'' was the response.
    We were told of the punishments inflicted on those who wish 
to freely determine the timing and spacing of pregnancy. We 
were told of the forced use of IUD's and mandatory IUD exams.
    In another residential area, we asked a couple, ``Did they 
tell you that you have to go in regular to have your IUD 
checked?''
    The woman responded, ``Yes, absolutely. We have to have it 
checked four times a year. The birth control workers come and 
tell you it's time.''
    We asked this couple, ``If someone in the village had more 
than one child, would there be consequences for the entire 
village?''
    The man told us, ``Those who have additional births will be 
fined. Whether the birth control work is done well affects how 
much money the village birth control workers get.''
    In another residential area, we interviewed a victim who 
had heroically escaped forced abortion by hiding in a nearby 
village. As punishment, three people in her mother's family and 
six people in her mother-in-law's family were thrown into 
prison. They were released after 4 months, only after a 
crippling fine of 17,000 RMB, about $2,000 U.S., equal to about 
3 year's wages. And it was paid to the family planning 
officials. Today this woman's black child is about 14 months 
old, and she must pay another 17,000 RMB before her child can 
be legally registered.
    Of the family planning workers who extracted the fines, 
this woman said, ``These people embezzle the money. They are 
corrupt. The district family planning officials take the money 
back home. The majority of the women have their children 
without proper spacing and suffer consequences.''
    When this woman's relatives were in jail, the Office of 
Family Planning sent a crew of officials to their homes. And 
they destroyed their homes and belongings with jackhammers. One 
of her relatives testified, ``The whole family was arrested. 
Everything in the house was stolen. The houses were completely 
emptied. We didn't have anything left inside.''
    All interviews were conducted within a few miles from the 
desk of a UNFPA representative, in a county where UNFPA 
contends that coercion does not exist.
    Through contact made with local officials, we located the 
county government building. And within this building we located 
the Office of Family Planning. And within the Office of Family 
Planning, family planning officials showed us the location of 
the UNFPA desk. We were told that a UNFPA representative works 
with, in and through the Sihui Office of Family Planning. We 
photographed the UNFPA office desk--and you can see over here 
on the podium--which faces, in fact touches, a desk of the 
Chinese Office of Family Planning.
    All of the locations of the interviews that were conducted 
fell within this county and under the governance of the county 
bureaucracy housed in the county government building.
    Prior to my arrival in China, research had been done to 
reveal that volunteerism does not exist in at least two more 
UNFPA so-called model counties in China, in Korla, in Xianjiang 
Province, and in Jianou--you have to forgive me--Fujian 
Province. But due to the information already obtained, and 
mindful of potential risks and dangers to the individual 
interviewed, it was decided that I should return home.
    Honorable chairman, members of this committee, in this 
county where the UNFPA operates, where UNFPA insists that only 
volunteerism exists, we were told by victims of coercion 
themselves that there is in fact no trace of volunteerism in 
this county. There is only coercion in abundant supply in this 
county where UNFPA operates, from within the Office of Family 
Planning.
    And before I add the video, I would like to add that if we 
seem uncooperative in trying to assist the interviews that were 
conducted earlier, I made a promise to these women that we 
would not develop a path where it could be used to come back to 
them. And I just want that to be understood.
    Senator Boxer. Well, we are going to--we will show your 
video after we go through the panel, because we have--you got 7 
minutes.
    Ms. Guy. OK.
    Senator Boxer. I want to be fair. So let us go--and thank 
you.
    So let us----
    Ms. Guy. The video is very short.
    Senator Boxer. All right.
    Ms. Guy. OK. Good.
    Senator Boxer. Thank you very much for your eloquence.
    Ms. Oakley. We have a video, too. I did not bring it up in 
the----
    Senator Boxer. Is it very short?
    Ms. Oakley. Three minutes--in the interest of time.
    Senator Boxer. How long is yours?
    Ms. Guy. Under three.
    Senator Boxer. Good. Well, that is a fair deal. So we will 
show both at the end of this.
    Ms. Guy. OK.
    Senator Boxer. So thank you for your eloquent testimony.
    Dr. Eberstadt, welcome back. I have had you before me 
before. We welcome you.

   STATEMENT OF DR. NICHOLAS EBERSTADT, HENRY WENDT CHAIR IN 
 POLITICAL ECONOMY, AMERICAN ENTERPRISE INSTITUTE, WASHINGTON, 
                               DC

    Dr. Eberstadt. Thank you very much, Madame Chairman, 
distinguished members of the committee and esteemed guests. It 
is always an honor to be back before your committee.
    Madame Chairman, I thought that I might best use my time 
this afternoon to provide a little bit of background on UNFPA. 
The U.N. Population Fund, UNFPA, is a runaway agency, an 
institution that has been hijacked, diverted from its original 
mission, and subsequently infused with a radical and ambitious 
demographic ideology.
    If one takes a look back at early documents from the UNFPA, 
this is what one reads. In its 1975 annual report it says, 
``Serious warnings have been issued from time to time in the 
population situation, but the fund has advisedly avoided making 
apocalyptic statements since that would be contrary to its 
mandate to influence government decisions in any way.''
    Today, by contrast, the UNFPA speaks of its mandate for 
promoting what it calls a ``universally acceptable goal of 
stabilizing world population.'' Now ``stabilizing world 
population'' is code language. And it is also a bit of a 
misnomer. Russia's population, for example, is declining by 
about 1 million people a year due to the excess of deaths over 
births. But UNFPA does not indicate any great interest in 
stabilizing Russia's population decline.
    Instead, ``stabilizing world population'' or ``stabilizing 
population'' means depressing birth rates worldwide, or, as the 
former executive director of UNFPA put it, ``achieving the 
lowest level of population in the very shortest time.''
    That objective, by the way, is shared by current executive 
director of the UNFPA, Dr. Obaid. She was quoted this month 
during a visit to Pakistan as saying, ``Yes, Pakistan has been 
doing well to slash its population growth rate, but it still 
has more to do in this regard.'' I think that is quite a fair 
exegesis of the self-directed mandate.
    To justify this anti-natal posture, UNFPA has repeatedly 
invoked disaster and purported impending catastrophe, often 
against received scientific knowledge or through a skewed and 
partisan reading of scientific data. I will not go through 
chapter and verse, but I will read you a few headlines that the 
UNFPA has garnered over the years.
    ``The United Nations yesterday asked people everywhere to 
pause July 11 and contemplate the bleak future of Baby 5 
billion, the child whose birth will push the Earth's population 
over the 5 billion mark.''
    ``Nutrition levels are dropping and infant mortality may 
once again be on the rise.''
    `` `The world's population is growing by three people every 
second. And unless this is curbed, most gains so far achieved 
and improving the quality of life will be swept away,' the U.N. 
Population fund said today.''
    ``U.N. report warns of population `catastrophe.' '' And on 
and on and on.
    From 2001, ``U.N. says 4 billion will be living in hunger 
by the year 2050.'' That is many times higher than the FAO 
would claim or project.
    The UNFPA's extreme view is disavowed even by other 
branches of the United Nations. Thus we hear from Joseph 
Chamie, the Director of the U.N. Secretary's Population 
Division, ``The UNFPA is a fund. They have an agenda,'' Chamie 
said, distinguishing his work from theirs.
    The UNFPA's infatuation with coercive population control 
goes back at least to 1983. In that year, the UNFPA awarded its 
first population prizes, one to Indira Ghandi, the other to the 
chief of China's State Family Planning Commission at that time.
    At that time, there was no doubt, no disagreement among 
objective observers, that China's program was coercive. Indeed: 
the respected American Nobel Laureate Economist, Theodore W. 
Schultz, resigned in protest from the UNFPA Advisory 
Commission, which was supposedly awarding these prizes, but had 
no actual say in granting them.
    The tone deafness toward coercive population control of the 
UNFPA thus is really nothing new.
    One or two extra points which I would submit for 
consideration: There is a fungibility question. Funds granted 
to organizations can be used in different ways to advance their 
purposes. The UNFPA funds in support of China's program can be 
used by that government to support its own priorities, just as 
ostensibly segregated U.S. funds to UNFPA will advance other 
priorities.
    There is the human rights question, of course, which we 
have already touched on, and the abuses in China's population 
program.
    And I would encourage us all to engage in a further thought 
experiment. In many areas of the world, the appalling practice 
of female genital mutilation is still implemented. What would 
we think if the UNFPA involved itself in a country where this 
practice was occurring, with the argument that by improving the 
health quality of such procedures, women's lives could be 
saved? I think we would not want to legitimize that practice. 
We would not want to ratify that practice. We would not want to 
go there.
    Finally, Madame Chairman, let me say I have no doubt the 
UNFPA has supported very many worthy activities. An 
organization which has dispensed over $5 billion surely should 
have some achievements to claim. But the ideologizing of the 
leadership of UNFPA risks degrading the quality of the 
organization's work and of making that leadership 
insufficiently attentive to possible human rights abuses 
committed in the service of the agenda that it prefers.
    I will stop there. Thank you.
    Senator Boxer. Thank you so much.
    I think what we will do is hear from our esteemed ranking 
member. Then we will go to the videos. And then we will take 
the questions.
    You are welcome to be here, and we are happy to hear from 
you.
    Senator Enzi. Thank you very much. And again I apologize 
for not being here earlier. I was in an OSHA hearing across the 
hall. We were trying to reduce the number of injuries and 
deaths among immigrant workers. And that was one of my first 
committee assignments when I came to the Senate.
    Senator Boxer. Great.
    Senator Enzi. And I do appreciate your holding this 
subcommittee hearing. And I do not want to destroy the flow of 
it. I will submit a statement for the record. I would rather do 
that, and then move onto some questions.
    Senator Boxer. Thank you so much, Senator. You are very 
gracious.
    [The prepared statement of Senator Enzi follows:]

                Prepared Statement of Senator Mike Enzi

    Madame Chairman, Thank you for calling this hearing to address 
United States funds going to the United Nations Population Fund. While 
UNFPA may have a very positive impact through some local programs, I 
believe it is the responsibility of the United States to ensure that we 
are not monetarily supporting programs that oppose our values. The 
right to bear children is a basic human right and the forced 
termination of a pregnancy is the ultimate denial of human rights.
    President Bush and his Administration are correct in withholding 
U.S. funds for UNFPA until we can determine if UNFPA is supporting or 
participating in coercive abortion or involuntary sterilization 
programs.
    The continued existence of coercive programs in China is evident, 
as we will hear from some of today's witnesses. While the government 
states that coercive practices are no longer condoned, they are still 
widely practiced in China. As UNFPA continues to focus solely on family 
planning issues and assisting Chinese population policies, I am 
concerned that other areas of health are being neglected.
    We also must remember that China may not be the only country where 
coercive abortion exists. The history of Peru's family planning 
practices raise too many questions about possible cover ups in order to 
protect UNFPA programs. In addition, I am concerned that UNFPA may be 
neglecting their own Mission statements, not only by possibly 
supporting coercive programs, but by failing to adequately and 
appropriately investigate the programs in which they are involved.
    I hope today's hearing will shed some light on China's practices. I 
also hope we can begin to work with the Administration to see how best 
the United States should address this situation. I thank each witness 
for participating in today's hearing and look forward to hearing their 
testimony. Thank you, Madame Chairman.

    Senator Boxer. And yes, let us show--Ms. Guy, do you want 
to show your video first? And then we will show Ms. Oakley's. 
And then I will have some questions for 5 minutes. And then I 
will give you over to Senator Enzi and then Senator Brownback 
and back to me.
    [A videotape was shown.]
    Senator Boxer. I will be asking some questions as to how 
you get to that conclusion after watching that very moving 
film, how you came to that conclusion. But we will let you 
ponder that.
    And, Mrs. Oakley, do you want to show----
    Mrs. Oakley. Yes.
    [A videotape was shown.]
    Senator Boxer. I think that's all of the time we--
    Mrs. Oakley. Yes.
    Senator Boxer. Let me ask you, Ms. Oakley, who paid for 
that? Is that a UNFPA-paid-for film?
    Mrs. Oakley. It is my assumption. May I turn and get 
confirmation?
    Senator Boxer. Yes. Just let me know.
    Mrs. Oakley. Yes. It is a UNFPA----
    Senator Boxer. And, Ms. Guy, who paid for your film?
    Ms. Guy. PRI.
    Senator Boxer. PRI. So that is your affiliation. They paid 
for your trip, and they paid----
    Ms. Guy. They paid my expenses, but they did not pay me to 
go.
    Senator Boxer. I think that is very important. You did not 
say that at first. I asked if you were a consultant. You said 
at the beginning you were not. But in fact, PRI paid for--it is 
fine. I just wanted to set the record straight.
    Ms. Guy. Yes, that is correct. I guess I want to clarify 
what you mean by consultant. In my mind, when you hire someone 
to be a consultant, it is because they have an expertise in the 
field. I did not go in that capacity. I thought that is what 
you meant by consultant.
    Senator Boxer. No. Somebody who gets their expenses paid by 
an organization in which something like this, a report, is 
made, I would say----
    Ms. Guy. OK. I just misunderstood what you meant.
    Senator Boxer. That is fine. I just wanted to clarify it. 
We have an argument here between UNFPA and PRI and a couple 
other people who get involved. But that is what we really do 
have.
    Ms. Guy, in your very, I thought, moving presentation, plus 
your very moving videotape, are you suggesting in any way that 
UNFPA actually conducted an abortion?
    Ms. Guy. Am I suggesting that they conducted it?
    Senator Boxer. Yes, that they performed an abortion, anyone 
working for them performed the abortion.
    Ms. Guy. I was never anyplace where an abortion was 
performed, so I have no idea who performed the abortion.
    Senator Boxer. So you do not know whether they did or they 
did not.
    Ms. Guy. I do not know who did.
    Senator Boxer. I thought you said the government. I thought 
that was your question, was about the question.
    Ms. Guy. My question?
    Senator Boxer. Yes, to her. Did the women refer to the 
government, that the government says you have to go to their--
--
    Ms. Guy. The family planning officials----
    Senator Boxer. Yes.
    Ms. Guy [continuing]. Are part of the PRC Government.
    Senator Boxer. So none of the women said to you that UNFPA 
encouraged them to have an abortion. They did not bring that up 
on their own.
    Ms. Guy. None of the women, when I asked them about the 
UNFPA, even knew what UNFPA was.
    Senator Boxer. Good. Good. That is what I am trying to 
establish.
    Is there anything on this list, this partial list of 
minimum required equipment for the maternity ward in 52 Beds in 
Kabul that the UNFPA is buying? Is there anything there that 
you would object to, Ms. Guy, or Mr. Eberstadt, anything on 
that list that you think is upsetting to you in any way?
    Ms. Guy. Is your question to me, is it upsetting?
    Senator Boxer. Yes. Is there anything that upsets you on 
that list that you think is inappropriate for the UNFPA to be 
doing, getting operating lamps, EKG monitors, et cetera, 
refrigerated products, a baby scale? Does anything on that list 
say to you that something is--that these things would not help 
people get healthcare?
    Ms. Guy. Based upon the face of it, nothing upsets me, no.
    Senator Boxer. Good.
    Mr. Eberstadt, anything there that rings your bell?
    Dr. Eberstadt. No, of course not.
    Senator Boxer. I guess that would fall under the category 
of ``they do some good things'' then.
    Dr. Eberstadt. Absolutely.
    Senator Boxer. This would be good, right?
    Dr. Eberstadt. Yes.
    Senator Boxer. Good. And the bad thing they do, could you--
I was not clear, because you said they are radicals and that 
they have--they are all radicals. They have this radical 
agenda. I did not see anything radical in what they are trying 
to do. But you are saying that in their mind they are radical. 
What is the problem?
    Dr. Eberstadt. No. I did not say they are all radicals. I 
said that in the leadership there is some radical ideology that 
is pervasive. Pervasive does not mean every single one. And 
that ideology, as I tried to explain, is anti-natal ideology, 
striving everywhere to depress birth rates under the argument 
or the belief that this will help avert global catastrophe at 
some future date.
    To the extent that this ideology substitutes for a 
scientific appreciation of facts, it necessarily distorts 
policies.
    Senator Boxer. Well, from what I know about the work they 
do, they seem to save an awful lot of lives. So what they 
think, what their ideology is, is one thing. I am----
    Dr. Eberstadt. They could say a lot, Senator.
    Senator Boxer [continuing]. Pro-choice. You are probably 
not. Is that right? Am I guessing right on that?
    Dr. Eberstadt. I am very troubled about the issue.
    Senator Boxer. You are troubled about the issue, and I am 
not. I am pro-choice. But clearly, you are troubled about the 
issue. I have enormous respect for that. If you do something 
good for people, save their lives, I am going to love you for 
it regardless of whether you are troubled about the issue.
    So Mrs. Oakley, you may be one of these people who is 
referred to, because you are involved in the UNFPA, are you 
not, on the American committee that supports----
    Mrs. Oakley. Yes, I am involved in it. I was a member of 
the delegation that went to Cairo for the conference in 1994. I 
gave it my all. I was very pleased with the results of the 
conference. I am now on the U.S. committee for UNFPA.
    Senator Boxer. Do you agree with Mr. Eberstadt that the--I 
hope I am quoting correctly--that the leadership and it is--he 
said pervasive in the leadership is a radical mind set that is 
motivating UNFPA to depress----
    Dr. Eberstadt. Anti-natalism.
    Senator Boxer. Anti-natalism. That means against little 
babies, I guess.
    Mrs. Oakley. Yes. I am delighted to take that question. And 
I am very interested in his approach, because I think he sets 
up a strawman, this idea that population policies supported by 
UNFPA is based on numbers. I think that we all know that fields 
evolve. As I understand it from some population work, 30, 40 
years ago it was more numbers driving it. And all you have to 
do is read the literature from the Cairo conference, the 
program of action, to realize that people in this field have 
moved away from numbers.
    There is no way that you can talk about it. I think he is 
very right to talk about the disparities in Russia of falling 
populations, the drain of the population in the United States 
and Japan. We all know about it.
    What we are talking about is growth rates that are 
appropriate for the development of those countries. There are 
no numbers attached.
    Senator Boxer. In other words, so that the children that 
are born--first of all, will be born--in a healthy fashion, 
because I think that is the point. What is important to me is 
that these children are born healthy and that we do not force 
women to have abortions by virtue of the fact that they will do 
anything because they are so desperate not to have a child. 
That is the irony that I see. This concentration on China, I 
understand, and every one of us deplores it.
    Now, Ambassador, I want to ask this: You did not say in 
your statement, which is very pro-UNFPA, you did not say that 
there is not coerced abortion in China, did you? What I thought 
your group found out is that there is improvement in that area 
because of UNFPA. Is that what you said? It is certainly not 
perfect, but to throw UNFPA out of there is going to lead to 
more trouble. Is that not what I basically heard you say?
    Ambassador Biegman. What I would say about coercion in 
China is that in approximately two-thirds of China there still 
is coercion, because they have not moved yet from the old 
coercive policies toward the Cairo approach of volunteerism. 
The volunteerism area is expanding. They started with 5 
counties in 1995. They moved to 32. They are now at 600, very 
much with the help of UNFPA.
    Senator Boxer. So your point is that we are not contesting 
our side, because I am on your side of the issue. I do not 
think there is a question of where we all stand--and I will 
conclude with this in this round. You are not contesting the 
fact that these women are suffering in some cases and maybe 
even these counties where it should not be happening. You are 
basically saying it is moving in the right direction. And UNFPA 
is playing a vital role.
    And if you look at their own charter, that is very clear, 
they can do nothing to promote this, they have to oppose this. 
And that is what you found. How many people were in your trip, 
on your delegation?
    Ambassador Biegman. We were four.
    Senator Boxer. From which countries?
    Ambassador Biegman. From the Netherlands, Honduras, the 
Czech Republic, and Botswana.
    Senator Boxer. Very interesting. Thank you.
    Senator Enzi.
    Senator Enzi. Thank you, Madame Chairman.
    I know that I was not here for part of this and that there 
is a statement put on the record about some abortion devices 
among Afghan refugees. Mrs. Oakley, is this the only kit the 
UNFPA puts out?
    Mrs. Oakley. This has been the main one. There is another 
one that substitutes sterile clamps for this cord in this one 
to tie the umbilical cord. You will notice up here there is a 
batch number. These are registered. And when they are 
distributed--and in response to the suggestion that there may 
be kits that include abortion whatever, I have asked and I 
thought it would be very interesting if we could all see one of 
those kits.
    Senator Enzi. So the two kinds of kits are the only kinds 
that were put out by the UNFPA.
    Mrs. Oakley. The only kind I have ever heard of.
    Senator Enzi. You were the Assistant Secretary of State for 
Population, Refugees, and Migration. And after charges were 
brought that the Peruvian Government was involved in coercive 
population growth programs, the UNFPA denied any knowledge of 
any coercion. A report by UNFPA confirmed those charges, but 
the report remained buried until recently.
    If UNFPA knowingly continued to fund coercive programs, 
would it not be a violation of UNFPA's own guidelines that all 
funded programs are voluntary?
    Mrs. Oakley. It certainly would be. Let me say that I left 
the Bureau in 1997. The issue of Peru had not come up. I am 
going to have to excuse myself on that one. I had not heard 
about it until this afternoon.
    Senator Enzi. If the UNFPA guidelines do require that the 
programs are fully voluntary, fully voluntary, before they can 
receive funding, how did UNFPA determine that China was 
eligible for funding?
    Mrs. Oakley. Again, it is because of where they are going 
that they have moved away from the programs on coercion that 
were described by Ambassador Biegman, that they recognize that 
they have a problem. I would also say, as an outside observer, 
the Chinese Government realized that their programs really were 
not working and were not sustainable over the long run.
    So they have had a move away from that. Nobody is saying 
that they are completely there today, but I think you have to 
look at the direction and the way they are going and how we can 
help them stay on that path.
    Senator Enzi. So all the country has to do is show a little 
bit of improvement.
    Mrs. Oakley. No, I do not think a little bit of improvement 
does it. I think they have to make a sincere effort. And I 
think there are ways to establish that.
    Senator Enzi. It is unfortunate that we cannot do some of 
our own audits on these things, that we do have to rely on 
other people.
    I appreciate your testimony and comments.
    Ms. Guy, based on your interviews and investigations, do 
you think that it is plausible for UNFPA to have a fair 
assessment of women's responses to family planning when it 
works under the permission of the Chinese Government? 
Concerning the coercion phase of the family planning offices, 
do you think women would be willing to talk about their 
experiences in the presence of government officials?
    Ms. Guy. No, I do not believe that would even be possible, 
based upon the conversations that I had with them. It was under 
the promise that I would not identify them and lead anybody 
back to them. The one woman whose testimony you heard about the 
little boy that you saw in the video, we were able to get a 
still shot of her. But she strictly forbid us to use the video 
when we were interviewing her, because of the fear of reprisals 
from the PRC.
    Senator Enzi. Did you see any evidence during your 
investigation that the UNFPA program is voluntary? Did you see 
any evidence that the Chinese Government family planning 
program is voluntary?
    Ms. Guy. Since I cannot read Chinese, I can--when you say 
``see,'' do you mean did I see pamphlets or things of that 
nature? When you say ``see,'' what do you mean?
    Senator Enzi. I give you wide latitude on that.
    Ms. Guy. OK. Well, when I went into the villages, 
everything was written in Chinese, of course. It was pointed 
out to me that there were some signs about family planning. 
When I had discussions with all of the women about the 
volunteerism in this particular county that we were in, they 
all were emphatic that, in fact, it did not exist.
    And my conclusion was that if UNFPA was working separately 
from the family planning officials, that they may have known 
about the program, but maybe they did not come to their homes 
to discuss it, or to implement such programs in the villages. 
But they had absolutely no knowledge about anything that UNFPA 
may or may not have been doing in their villages.
    If I may respond to the unanswered question that Senator 
Boxer had asked, she asked how did we come to, your words, come 
to that conclusion about--on the videotape, if I may just say, 
that the UNFPA works out of the same office as the family 
planning official. And if you look at the videotape or if you 
want to put up the still there, their desk actually faces--they 
have to face one another.
    So for them to actually say or even give testimony that 
they do not know about coercion, I find that--I would have to 
ask you if that--I find that highly unlikely, that these things 
could be going on and UNFPA would not know about it.
    When we went to the office, we specifically asked for them 
to show us where the UNFPA desk or office was. We thought it 
would be in a separate office, that they would be working in--
and that the family planning official would be somewhere else. 
But, in fact, there is one desk. They pointed it out to us.
    And we asked to speak to the U.N. worker, and they told us 
that she was unwell, she was in the hospital. So we were not 
actually able to get testimony from her. But they clearly 
pointed out that that was the United Nations desk. That was 
from the family planning officials themselves.
    Senator Enzi. Since the consultant thing seems to be a key 
on this----
    Ms. Guy. Yes.
    Senator Enzi [continuing]. When you went over, I understand 
that you got expenses.
    Ms. Guy. True.
    Senator Enzi. Were you compensated? Were you paid a salary? 
Were you----
    Ms. Guy. I was not compensated one penny. I even used some 
of my own money to go.
    Senator Enzi. Thank you.
    I will yield back the balance of my 10 seconds.
    Senator Boxer. Senator Brownback.
    Senator Brownback. Thank you. Thank you, Madame Chairman.
    It is quite a heroic activity you did, Ms. Guy, to go in 
undercover and to be able to report those and then to get a 
videotaping of that. I think we would all agree that that is a 
deplorable situation that needs to be investigated much 
further.
    Have you had a positive response from U.S. officials, or 
have UNFPA officials said, ``Well, we need to investigate this 
further'' after your return with this videotaping and pictures?
    Ms. Guy. To me personally? No.
    Senator Brownback. Or to any group you know of?
    Ms. Guy. You may want to ask the president of PRI that 
question. He is behind me right here. I personally was not 
asked that question. I do understand there was an 
investigation, as we heard today, to follow up on that.
    Senator Brownback. But have you been contacted by the U.N. 
to say, ``We want to investigate this further after what you 
saw''?
    Ms. Guy. I did receive one call after I got back from China 
at my home. And I do not remember the gentleman's name, but I 
did understand him to say that he was a consultant for the 
UNFPA and he wanted to question me and wanted to know where the 
women lived in the villages. And I told him that I was not 
willing to give him that information, and if he had any other 
questions, he could direct them to PRI.
    Senator Brownback. It seems like we should have this 
further looked at. And we ought to have a UNFPA official in to 
question them about what your findings were and about what Dr. 
Eberstadt's comments are. I find the suggestions very 
troubling, if we are putting that sort of funding toward this 
group.
    I note you have a list of items here for hospitals. There 
are other organizations other than the UNFPA that funds 
hospital items and equipment, particularly even from the 
American Government within AID, the Agency for International 
Development, American schools and hospitals abroad, funds 
hospital equipment. In my own state we have a group called 
Heart to Heart that provides equipment, provides medical care. 
And maybe that is something that I can work with you, Mrs. 
Oakley, on securing this from other sources.
    I think you are certainly getting to know here that there 
is some question about how UNFPA funds things. There is no 
question that we need to help out with the hospitals. So if 
there are things that I or others can do, because we have 
multiple different sources to be able to get hospital equipment 
and items from--and we should not let this long-term question 
about UNFPA, its ideology, the continued assertions of it 
supporting or knowing of forced abortions or sterilizations and 
not being actively involved differently, we should not let that 
question get in the way of our helping hospitals in 
Afghanistan, which I strongly support us doing.
    And I think we ought to look at some different sources for 
the funding, so that we do not get this held up in that fight, 
because they need the equipment now. They need to go through 
that.
    One thing, Ms. Oakley, that I want to direct your attention 
on, and it is a bit of an aside, but you are on the witness 
stand, so I want to ask you about it. You were head of the 
office here during the Clinton administration as Assistant 
Secretary for Population, Refugees, and Migration. You have 
worked with a number of different groups.
    We had this enormous falloff in the number of refugees that 
we have admitted into the United States during the last 10 
years and particularly during your tenure at the Bureau of 
Population, Refugees, and Migration. And we just had the prior 
witness up in a hearing that I held in the Immigration 
Subcommittee, berating him about why we are not taking more 
refugees. It is not that there is not enough refugees in the 
world. There are something like 14 million. And yet we have 
really been declining in our commitment and acceptance.
    And I have put a chart in front of you that I have up here 
about during the years that you were there, 1993 to 1997, when 
we fell off to nearly 15,000 per year refugees that we were 
taking into the United States. Why are we not receiving more? 
Why did that fall off so rapidly?
    Mrs. Oakley. Senator, may I say at the beginning that I am 
extremely flattered that you could think that I can remember 
the absolute details of those programs. But let me----
    Senator Brownback. You do not have to remember the details; 
15,000----
    Mrs. Oakley. Let me try and give you the answers as I 
remember them. But perhaps if I make a mistake on this, I could 
correct it for the record.
    When I took over as the Principal Deputy and then as 
Assistant Secretary in 1994, we had two major refugee programs. 
The first was the Vietnamese program, the whole programs of the 
boat people that were winding down, that had been such an 
amazing success.
    Our second largest program, and the numbers varied on this, 
involved Pentecostals, Evangelical Christians, and Soviet Jews 
from the former Soviet Union. Generally the numbers for the 
Soviet program were extremely high. And we were coming to the 
end of that program.
    And as some of the resettlement was talked about, when you 
come to the end of programs, you get the people who are older 
and who are sicker and who do not qualify under the 
requirements for refugees to come into the United States.
    And as I remember, most of those numbers that were unused 
came from unused Soviet numbers, that we simply did not have 
enough people then to fill the slots that were available for 
them. It was of great concern to me that our numbers of what we 
were asking for and what we could bring into the country did 
not--were not closer together, because I felt that the 
integrity of refugee programs really involves making those 
numbers match as best we can.
    And so I worked on that to see how we could reduce some of 
those programs so that it would match what we were actually 
doing.
    Senator Brownback. I hope you will work with us to try to 
get these numbers back up, because there are a lot of refugees. 
And your expertise in the past would be helpful for us to try 
to do that again.
    Mrs. Oakley. Yes, certainly.
    Senator Brownback. Madame Chairman.
    Senator Boxer. Thank you.
    Senator, did you want to ask one more question before you 
had to leave? Because I am happy to just defer to you.
    Senator Brownback. Go ahead.
    Senator Boxer. Thank you.
    On the issue of refugees, I mean we hope for a peaceful 
world where Communist countries do go away and totalitarianism 
does go away. And then people do not have to come here because 
they can stay home and find peace and find freedom to worship, 
et cetera, et cetera. So I hope that we do not have to see 
numbers go up, because if the numbers go down, I would hope it 
meant that there were not that many people who needed to escape 
from the terror and the horror. And I know we are all going to 
work on that.
    Let me get back to the question of this particular hearing, 
and that is: Do we do any good by holding $34 million hostage 
because in one country we know there are still bad things going 
on in terms of China? And there is no debate about it. The 
question is whether UNFPA is making things worse.
    And, Ms. Guy, you seem to think they do. I am not exactly 
clear how because you said, to your knowledge, they are not 
involved in the actual abortions in any way. So my question to 
you is: Do you know----
    Ms. Guy. I do not believe that was testimony, Senator 
Boxer. I do not think that is what I said.
    Senator Boxer. You said that you did not know that they 
were involved in actually performing the abortions.
    Ms. Guy. I said I was not in the room where the abortions 
were being----
    Senator Boxer. So you are holding that out, that it is 
possible that the----
    Ms. Guy. No, I am not. No.
    Senator Boxer. So let us be clear.
    Ms. Guy. I am not holding that out.
    Senator Boxer. You are not holding that out?
    Ms. Guy. I just wanted to make the record clear.
    Senator Boxer. Well, the record is murky. What I am saying 
is: You are certainly not suggesting you are telling us today 
that the employees at the UNFPA are performing abortions in 
China. You are not telling us that.
    Ms. Guy. I am not telling you that.
    Senator Boxer. Very good. OK. Now let me get on.
    How many people work in China for the UNFPA in the whole 
country?
    Ms. Guy. I believe that is a question you would have to 
direct to UNFPA. I have no knowledge.
    Senator Boxer. I have knowledge. How many do you think? You 
are showing them this great, all-consuming power----
    Senator Brownback. I do not know whether you should ask her 
to guess.
    Senator Boxer. Well, I am asking--I am questioning the 
witness, and she does not have to answer if she--
    Ms. Guy. OK. Well, you----
    Senator Boxer. But if you were to think--are you thinking 
it is in the tens of people, it is in the hundreds of people? 
How many people do you think work for the UNFPA?
    Ms. Guy. I would only be guessing. I have no idea.
    Senator Boxer. OK. Well, there are four people who work for 
the UNFPA. And I just think the way this whole presentation is 
going, it is as if they are hovering over every clinic and, you 
know, encouraging bad things to happen. It just does not make 
any sense at all.
    And I want to--Mr. Biegman, when you were in China--Ms. Guy 
said that she saw the office of the UNFPA, but no one was 
there, no one was at the desk. But she was told that----
    Ms. Guy. I am sorry, Senator Boxer. I do not mean to keep 
interrupting. But I did not say that I saw the office of the 
UNFPA.
    Senator Boxer. Oh, I am sorry. I thought you said that the 
desk of the UNFPA, they had an office across the way from the 
Chinese----
    Ms. Guy. No. If you want to look at the picture, I can 
point it out to you.
    Senator Boxer. Why do you not just explain it? I am glad to 
hear this. What did you exactly say was the relationship in 
terms of where the UNFPA had its office with the Chinese 
authorities?
    Ms. Guy. OK. I believe, if we look back at the record--it 
is probably better to just look back at the record for the 
accuracy, but I said that there was an office that was 
identified to us by the Chinese officials as the Chinese Family 
Planning Office.
    Senator Boxer. Oh. I see.
    Ms. Guy. May I continue with that thought?
    Senator Boxer. Certainly.
    Ms. Guy. And within that office was a desk that was 
identified as the UNFPA desk.
    Senator Boxer. OK.
    Ms. Guy. If you look at the picture, I can show you exactly 
which desk it is.
    Senator Boxer. That is fine. Now I get it.
    Ms. Guy. OK.
    Senator Boxer. So it is the Chinese Family Planning Agency, 
in which there is a desk. So that it may be that the UNFPA may 
come there once in a while to keep their eye on this program, 
because I think what has been testified to is that they are 
trying to help ensure that these counties, these special 
counties, move away from coercion. They would have to, in fact, 
talk to the people there. So I do not see anything nefarious. I 
think it is good that they would be hanging close there.
    Mr. Biegman, you were actually there. What was your 
impression? Do you think that the UNFPA--I am going to be just 
using pretty straightforward terms here. Are they trying to, in 
your opinion, move China away from coerced abortions and 
sterilization toward voluntary family planning, or are they in 
essence working with the Chinese authorities to coerce 
abortions? Your sense; you were there.
    Ambassador Biegman. It is very much my impression, having 
talked to both the Chinese authorities and UNFPA people at 
length, that indeed UNFPA and the Chinese authorities are 
working together on eliminating coercive policies in the field 
of reproduction health and family planning.
    I would like to refer to one of the attachments to our 
report, which may not be familiar to everybody, but which is a 
leaflet with two children on it, not one, which is a 
distribution among the households of the various project 
counties in China.
    Senator Boxer. I am going to ask that that be included in 
the record without objection.
    [The information referred to follows:]

                         [On the front cover.]

              Reproductive health/Family planning project

                               crp/98/po1

       The Project Office of the State Family Planning Commission

              [The contents of the main body of the text:]

    Dear people of reproductive ages:
    How are you?
    The Project of Reproductive Health/Family Planning (RH/FP) is the 
4th cycle of cooperation between the Chinese Government and the United 
Nations Population Fund (UNFPA). The county where you are residing at 
is one of the project counties. We sincerely hope you and your family 
will actively participate in our project activities.
    The purpose of the project is to have contributed to increasing 
dissemination of RH/FP information and knowledge, promotion of 
responsible reproductive behaviour and practices, providing 
comprehensive services of quality of care concerning RH/FP and to have 
contributed to the formulation of the Government's RH/FP strategies for 
the next century, in line with the principles of the Programme of 
Action of the International Conference on Population and Development 
(ICPD).
    The ICPD Programme of Action points out that people have the right 
to decide freely and responsibly whether to have children or not, or 
the number and timing of their children. The Programme of Action 
defines 15 principles: Among them the major contents concerning human 
rights include the following: all humans are born free and equal in 
terms of dignity and rights; human beings are at the center of concerns 
for sustainable development; the promotion of gender equality, equity 
and women's rights; the elimination of violence against women; the 
assurance of women's ability to decide their own childbearing; each 
individual is entitled to education. The content concerning the right 
to development are: population-related goals and policies should be 
integral parts of cultural, economic and social development; the right 
to development is a part of fundamental human rights; economic growth 
and social progress must be effected on the condition of sustainable 
development and the alleviation of poverty.
    The Programme of Action also points out that it is the sovereign 
right of each country to carry out the recommendations contained in the 
Programme of Action. The implementation must be consistent with 
national laws and development policies, with full respect for the 
various religious and ethical values and cultural backgrounds of 
people, and be in line with universally recognized human rights.
    Reproductive health is a state of complete physical, mental and 
social well-being and not merely the absence of disease or infirmity, 
in all matters relating to the reproductive system and to its functions 
and processes. Reproductive health therefore implies that people are 
able to have a satisfying and safe sex life and that they have the 
capability to reproduce and have the right to decide responsibly and 
freely whether or not to have children and the number and timing of 
their children. Implicit in this last condition are the right of men 
and women to be informed and to have access to safe, effective, 
affordable and acceptable methods of family planning, as well as other 
methods of their choice of regulation of fertility which are not 
against the law, and the right of access to appropriate health-care 
services that will enable women to go safely through pregnancy and 
childbirth and provide couples with the best opportunity of having a 
healthy infant.
    During the implementation of the project in 32 counties, the 
Chinese Government and the United Nations Population Fund will work 
together to ensure doing the following:

  <bullet> Advocate for responsible reproductive health/family planning 
        behaviour and practice; provide the technical skills and health 
        care for safe, effective, affordable and reproductive health 
        and family planning services.

  <bullet> Increase RH/FP information and knowledge; mobilize all 
        people and organizations at all levels to actively participate 
        in all project activities.

  <bullet> Adopt an integrated approach, one that will combine the 
        promotion of family planning with economic development, 
        universal education, improvement of women's status and 
        provision of quality family planning and reproductive health 
        services.

  <bullet> Not engage in any form of coercion.

  <bullet> Abolish birth quotas and targets.

    After reading this letter, please kindly pass this message on to 
your friends, and we hope you actively participate in all project 
activities. If you need more information, please contact your local 
family planning or village offices. They will kindly provide services 
of quality of care with all their heart.
    Thank you for your cooperation and support.
    Project Office of the State Family Planning Office.

                          [On the back cover:]

    If you have any reproductive health or family planning problems, 
you are welcome to contact your local reproductive health services or 
health care organizations. You are also welcome to contact the Project 
Office of the State Family Planning Commission.
    Our address is:

State Family Planning Commission Project Office
14 Zhichun Road, Beijing (100088)
Tel: (010) 62051834
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ambassador Biegman. There is a translation of this. This is 
in Chinese, of course. There is a translation attached as well, 
which I might read out to you, just the main things which says 
the--it is about the project, Reproductive Health and Family 
Planning Project of UNFPA and the State Family Planning 
Commission.
    And it has, among other things, the ICPD Programme of 
Action points out that people have the right to decide freely 
and responsibly whether to have children or not, or the number 
and timing of their children. And then there are the 15 
principles of the program of action and so on and so forth.
    There is a very orthodox, I mean worldwide orthodox, 
definition of reproductive health taken straight from the Cairo 
program of action.
    And then it says, ``During the implementation of the 
project in 32 counties, the Chinese Government and the United 
Nations Population Fund will work together to ensure doing the 
following: Advocate for responsible reproductive health/family 
planning behavior'' and so on, ``increase reproductive health 
and family planning information and knowledge; mobilize all 
people and organizations at all levels to actively participate; 
adopt an integrated approach.'' And then it says ``not to 
engage in any form of coercion,'' and ``to abolish birth quotas 
and targets.''
    This was spread very widely, because once we knew about 
this, anywhere we went in--and we went into the houses of some 
people on and off. We asked them, ``Do you know this?'' And 
they said ``yes.'' And sometimes they produced it, you know. 
They produced it.
    So it is very much my impression that, of course, UNFPA 
cannot work on its own in China. They have to work together 
with the Chinese authorities or quit. So that is what they are 
doing. And they are doing it in the right direction. They are 
doing a good job.
    Senator Boxer. Well, thank you. I think that is clearly--
you believe that, you saw that with your own eyes. Ms. Guy had 
another experience. And, you know, I think we are going to have 
to make the decision as to what we want to do.
    Senator Enzi.
    Senator Enzi. Thank you, Madame Chairman.
    Now that we have established that the UNFPA only has 4 
employees in China, how do 4 employees monitor the programs in 
32 counties, Mr. Ambassador?
    Ambassador Biegman. UNFPA does not work with its own 
employees, but it works with other U.N. agencies. And it works 
with NGO's, like, you know, others. They are the executive 
agencies in all those counties. UNFPA monitors. They visit 
these counties at least once a year. They have their regular 
meetings with the executive agencies. That is how it works.
    Senator Enzi. I am just trying to recall my map of China 
and the towns. I am from Wyoming. A big town there is 250 
people. And I can understand 4 people monitoring this sort of 
thing in Wyoming, but I am having a little problem just with it 
itself, with figuring out how people would know what is going 
on anywhere at any time.
    You say that they get out into the field and they visit 
where every year? Everywhere every year? And I cannot get----
    Ambassador Biegman. Every year it seems they visit one of 
the project counties of UNFPA. They know about as much about 
the China program as a minister knows about social security in 
his own country. These are huge fields. And you try to know and 
to be secure about the trend which is developing and about the 
general lines of policy which are being followed by the Chinese 
Government. I think that is the main thing.
    Senator Boxer. Would you yield to me? I----
    Ambassador Biegman. And it is impossible to know about all 
the----
    Senator Boxer. I might have something--it would not come 
off your time--that might help. During the 4-year history of 
the current China program, UNFPA's activities in China have 
been visited by more than 60 outside international observers 
representing more than 30 countries, one of which was Mr. 
Biegman's--this does not count, Ms. Guy's visit, which was in 
an unannounced, undercover operation. But we have people 
visiting.
    And so the fact is they are dealing with other people in 
the U.N., which leads to a bigger problem, because if you think 
that is not working well, and you take the money away from this 
agency, and there are a lot of people involved here who go 
after their money, we will really have a problem.
    Would you add two more minutes to Senator Enzi's time?
    Senator Enzi. And I thank you for mentioning that Ms. Guy's 
meeting was unannounced. And that, of course, implies that 
these others were announced.
    Your trip, Mr. Ambassador, was announced, was arranged with 
the Chinese Government?
    Ambassador Biegman. Yes. It could not have been otherwise.
    Senator Enzi. During these visits, how much time was spent 
doing private interviews, do you know, without the knowledge or 
observation of the government officials?
    Ambassador Biegman. We calculated we had about 3 hours of 
private conversations, the various members of the team. But 
what we did from time--we had one or two Chinese Government 
officials with us, of course, on all of the trip. I would try 
to monopolize their attention. And the other three members of 
the team would go into this clinic and talk to women who were 
sitting there being counseled. That is how we did it.
    Senator Enzi. A very difficult task, then, of distracting 
them so that people could actually ask questions.
    Ambassador Biegman. It could be done. It could be done. 
There were three of them. There were one or two Chinese with us 
whom we had to distract--or not to distract, but I kept talking 
to them, you know, about interesting things.
    Senator Enzi. Right. But again from an auditing standpoint 
here, I am very sensitive right now; I am auditing. The people 
that happened to be in the clinic, could that have been 
controlled in any way by the Chinese Government, or were they 
all purely random?
    Ambassador Biegman. I think the Chinese authorities would 
have been--would have to be very, very well organized in order 
to orchestrate all that. I cannot imagine that, not really. And 
they looked genuine. They were, you know, humble village women, 
who had their stories to tell, but who did not tell about 
abuses or things like that. They could have done it easily, 
easily, and they did not.
    Senator Enzi. How were the homes that you went to chosen 
for the interviews?
    Ambassador Biegman. They took us to one or two villages in 
the vicinity of Sihui and let us--let us walk about, let us 
walk about. That, frankly--frankly, if I were you, I would 
not--I would not take too seriously, because that, of course, 
could be set up. You have a village. You have three or four or 
five houses where somebody happens to be home and they have us 
come in and visit. Even there we asked people, how--young, say 
young man, around 20, 22 years old, not yet married, ``How many 
children would you like to have in the future?'' They would 
say, ``Well, maybe two, maybe three. I will see.''
     May I--excuse me. May I come back to this famous desk, 
this famous UNFPA desk in Sihui County? I cannot believe there 
is one. I mean, if UNFPA visits the county once a year, is 
there a desk for them? I mean, they would walk about. They talk 
to the state people. They--
    Senator Enzi. Quite frankly, if I wanted to keep somebody 
from actually looking at the problem, I would provide them with 
a desk.
    Ambassador Biegman. You know, they can walk about without a 
desk. But, I mean, it is to speak, as the report did, which was 
presented to the Congress last year, about abuses occurring 
within a mile of the UNFPA desk in Sihui is not giving accurate 
information.
    Senator Enzi. Would you like to comment on this, Ms. Guy?
    Ms. Guy. My comment would be we asked the Chinese where we 
could find the United Nations desk. And they directed us to 
that desk and pointed it out to not only me but to the Chinese 
translator, who was with me when I arrived, the day prior to my 
arrival. Actually, we went three times. And three times they 
told us the same thing.
    Senator Enzi. Were there Chinese officials with you all the 
time?
    Ms. Guy. They were never with us. They did not know we were 
there.
    Senator Enzi. How did you select the people that you talked 
to?
    Ms. Guy. Just random, just going--finding a village and 
walking in and going to the resident with--most of the villages 
up front, there are market areas where people are selling and 
buying goods. And then you proceed to the back of those 
villages, and you find the residential areas.
    And we would just find a group of women or people 
congregating and told them that we wanted to speak with them 
about family issues. And when we got very pointed about our 
questions, I expected that possibly they would not really want 
to talk about it. But to my surprise, I found that they very 
much wanted to talk about it and were very adamant.
    If you--if anybody gets an opportunity, you might want to 
just actually listen to the audio tape itself. We translated 
it, but you can hear the voices in here. And they are very 
passionate, these voices. And when they found out that we were 
talking about this particular issue, they came around and 
rallied around the table always outside under a tree, except 
for the one or two that was in the home there. And especially 
the elderly women, who were the mothers of the women who were 
in a big force in these provinces, were very passionate about 
how bad it was for their daughters. And they just really wished 
things would change.
    And so we just went and randomly selected villages and 
walked in.
    Senator Enzi. Thank you.
    No, I will not take the extra 2 minutes.
    Senator Boxer. Are you sure?
    Senator Enzi. I thank you, Madame Chairman, for your 
courtesy.
    Senator Boxer. Thank you so much, Senator Enzi, for your 
good questions.
    Senator Brownback.
    Senator Brownback. Thank you, Madame Chairman. I would ask 
for unanimous consent that the full report from the Population 
Research Institute be submitted into the record.
    Senator Boxer. Without objection, it will be done.
    Senator Brownback. Thank you.
    [The report referred to follows:]

      Report of the Population Research Institute, Front Royal, VA

               UNFPA, China and Coercive Family Planning

                           december 12, 2001
Introduction
    Population Research Institute (PRI) sent an independent 
investigative team to China on September 27, 2001. The investigative 
team consisted of Ms. Josephine Guy, a paralegal with a background in 
security affairs, two translators and one photographer/videographer. 
Additional assistance was provided by two associate researchers based 
in China.
    PRI's investigative team spent a total of four days in China. 
During this period, the investigative team interviewed family planning 
workers and spent over 10 hours interviewing more than two dozen 
victims or witnesses of coercion in Sihui County. Over four hours of 
testimonies were recorded on audiotape, and approximately 30 minutes of 
testimonies were recorded on videotape.
    Interviews with victims were also recorded in notebooks, in both 
Chinese and English, and additional photographic evidence was obtained. 
Victims and witnesses of coercion were interviewed privately, not in 
the presence of officials, to ensure those interviewed were able to 
speak about their own experiences with the one-child policy without 
fear of reprisals.
    The investigative team also located the Chinese office of family 
planning in Sihui county, Guangdong Province, and spoke with local 
family planning officials. Local officials provided information about 
UNFPA's county program, including the location of the office desk of 
UNFPA's worker for the Sihui county program.
    PRI's lead investigator returned to the US in early October with 
the audiotaped and videotaped testimony, and all other information 
obtained by the investigative team during its investigation.
    Doing field research in the People's Republic of China presents 
challenges. The government is hostile to investigators who do not take 
the nature of its policies on face value, and punishes its domestic 
critics with extreme severity. PRI's investigative team, therefore, 
took precautions to protect those who testified.
    In addition, the names of the translators, the photographer, and 
China-based personnel of the investigative team have been withheld to 
prevent retribution by the government of the People's Republic of 
China.
    Moreover, PRI sought no assistance from the government of the 
People's Republic of China to carry out its investigation, and received 
none. Had such assistance been sought, it is likely that the PRC 
government would have either obstructed PRI's investigation by denying 
visas to the members of our investigative team, or attempted to 
influence the investigation and the testimonies provided by the victims 
and witnesses of coercion.
UNFPA County Program in Sihui
    The goal of PRI's independent investigative team was to carry out 
an in-depth analysis of a UNFPA county program.
    UNFPA has stated on the record that it operates family planning 
programs in 32 counties in China. In these programs, UNFPA states, 
family planning is ``fully voluntary'' and that there is no coercion. 
UNFPA also states that in these counties, targets and quotas have been 
lifted, ``women are free to voluntarily select the timing and spacing 
of their pregnancies,'' and abortion is not promoted as a method of 
family planning. (See: ``UNFPA's County Program in China: Providing 
Quality Care, Protecting Human Rights,'' UNFPA, August 10, 2001.)
    PRI obtained first-hand evidence which calls into question the 
accuracy of UNFPA's claims.
    The county program selected for investigation was in Sihui county, 
in Guangdong Province in Southern China, approximately 100 miles 
northwest of Hong Kong.
    While this report focuses on the findings of PRI's investigative 
team in Sihui county, PRI researchers were also told of the existence 
of coercion in two other UNFPA county programs.
    In Sihui county, during phone conversations and discussions in 
person with local officials, members of PRI's independent investigative 
team were provided with information about:

  <bullet> The geographical extent of Sihui county.

  <bullet> The location of the Chinese Office of Family Planning.

  <bullet> The location of the office desk of the UNFPA family planning 
        representative for Sihui county.

    PRI investigators were told by county officials that UNFPA's county 
program in Sihui operates in support of the Chinese family planning 
program.
    The investigative team was told by officials that UNFPA's 
representative in Sihui and Chinese family planning officials work from 
the same office, the Sihui County Office of Family Planning.
    PRI investigators spoke to Chinese officials in this office, and 
inquired about UNFPA. PRI investigators were shown by these officials 
the UNFPA desk. Photographic evidence of the UNIFPA office desk within 
this office was obtained by PRI's photographer. Local officials told 
PRI investigators that there is no distinction between UNFPA's program 
in Sihui and the Chinese family planning program in Sihui. PRI 
investigators visited this office on three occasions. On two of these 
occasions, officials pointed to the UNFPA desk, and also said that the 
UNFPA representative was at the local hospital. On the third occasion, 
additional photographic evidence was obtained.
    Officials also informed PRI investigators of the borders of Sihui. 
All interviews referred to in this report were conducted within the 
borders of Sihui county; namely, within the area that the Sihui office 
of family planning, and the UNFPA family planning representative, 
operates.
Interviews
    The investigative team received testimony from over two dozen 
victims and witnesses of coercion within Sihui, all within a few miles 
of the UNFPA office desk. Interviews were conducted in a government 
medical facility, and in four different residential areas. By many 
victims and witnesses of coercion, PRI investigators were told that:

  <bullet> There is no voluntary family planning in Sihui.

  <bullet> Coercive family planning policies in Sihui include: age 
        requirements for pregnancy; birth permits; mandatory use of 
        IUDs; mandatory sterilization; crippling fines for non-
        compliance; imprisonment for non-compliance; destruction of 
        homes and property for non-compliance; forced abortion and 
        forced sterilization.

    Witnesses and victims said that population control is implemented 
by force of the state, rather than, as the UNFPA claims, through ``a 
client-oriented approach.''
The UNFPA Office Desk
    On September 26, 2001, one of PRI's translators placed calls to the 
Sihui county government building. PRI's translator was given the room 
number of the Office of Family Planning by a local official. PMI's 
translator, on September 26, went to that office and spoke with family 
planning officials. A family planning worker, in the Sihui County 
Office of Family Planning, pointed to an office desk. Two family 
planning workers in this office told PRI's translator that ``this is 
the desk'' of the UNFPA worker.
    On September 27, the investigative team entered the Sihui County 
Government Building and spoke again with local officials, who again 
gave the location of the office desk of the UNFPA officer within the 
Sihui County Family Planning Office. Photographic evidence of the 
office, its occupants, and its signage was obtained on this and the 
following day.
    The sign outside the door of the office says: Family Planning 
Office, Room 1. The offices--a single large room--house six family 
planning workers. One is described as the UNFPA representative. The 
UNFPA representative's desk faces, in fact touches, the desk of a 
Chinese family planning worker.
Interviews in Government Facility
    On September 28, the investigative team visited a government 
medical facility located within a mile of the Sihui County Family 
Planning Office and within the borders of Sihui county. The team 
interviewed one doctor, and four women who said that voluntarism does 
not exist within the county's family planning program. The team met a 
woman who was at the facility to receive a non-voluntary abortion. She 
was accompanied by three friends, all of whom said that Chinese law 
mandates abortions for women pregnant without government permission. 
They asserted that their friend wanted to continue her pregnancy, but 
the law forbids it.
Interviews in Residential Areas
    On September 27, 28 and 29, the investigative team visited four 
residential areas, all within a few miles of the Sihui County Family 
Planning Office and within the borders of Sihui county. In interview 
after interview, local men and women said that, in Sihui county's 
family planning program:

  <bullet> Coercion is as bad today as it has ever been.

  <bullet> Forced abortions, forced sterilization, and forced use of 
        Depro Provera, IUDs and other forms of birth control are 
        routine.

  <bullet> The punishment for noncompliance includes crippling fines, 
        destruction of homes, and imprisonment of women and their 
        relatives.

  <bullet> Voluntary family planning is non-existent.

    The interviews were conducted in open-air settings, as well as in 
peoples' homes. As formal interviews were being conducted and recorded, 
bystanders often gathered and began to tell their own stories of 
coercion. No one disputed that the county's family planning programs 
were coercive. Several of those interviewed spoke of the routine 
destruction of homes for attempting unauthorized births.
    Propaganda slogans promoting the necessity and the benefits of 
family planning were posted throughout the four residential areas. None 
of the slogans mentioned that coercion has been eliminated and quotas 
and targets had been lifted, as the UNFPA claims, in Sihui county.
    On September 29, the investigative team visited what locals called 
a ``model family planning village'' within this UNFPA ``model county.'' 
Two residents of this village said in interviews that local family 
planning workers receive benefits and promotions based on their 
compliance with targets and quotas.
    These same residents also said that, within the ``model family 
planning village,'' family planning policy was enforced using the same 
non-voluntary measures that were found elsewhere.
Interviewing Methods
    While conducting interviews, the investigation team did not attempt 
to administer a survey instrument, but asked open questions about the 
interviewee, their family, and their experiences with the family 
planning program.
    In the words of Ms. Josephine Guy, PRI's lead investigator:

          We struck up casual conversations, and asked people if they 
        would talk to us about family life. People were friendly and 
        pleased to have visitors from outside of China. As the 
        conversation began in earnest, more and more people would 
        invariably gather around, curious to discover the reason for 
        our visit. Many times they would chime into the conversation. 
        At times it was difficult to carry on conversations, so many 
        people were talking at once. Everyone was eager to talk and 
        answer our many questions. After a few minutes, we would begin 
        to ask pointed questions about family planning policies and 
        their own personal experience. I was initially worried that 
        they might be bothered by the subject matter and hesitate to 
        answer. To my surprise, they continued with enthusiasm.

Jackhammer Campaign
    Several women testified that the penalty for noncompliance with an 
order to abort an unauthorized pregnancy, or to undergo sterilization 
after the birth of a second child, was the destruction of one's home. 
One woman told PRI investigators of a woman nearby, who was recently 
forced to leave her home to protect her pregnancy against forced 
abortion. As this woman spoke, she became very emotional and began to 
hide her tears.
    In another residential area, we spoke with a man who was working in 
his garden. He turned out to be the father-in-law of a woman who had 
been ordered to have an abortion but had instead gone into hiding. He 
was angry at local officials because his home and two others had been 
recently destroyed by Sihui family planning workers as punishment for 
his daughter-in-law's refusal to submit to an abortion as required by 
the law.
    Nine of this woman's family members had been imprisoned and they 
had been forced to pay fines to win their release. Their neighbors had 
loaned them the funds they needed to pay the fines.
    This man took PRI's investigative team to interview his daughter-
in-law. She told PRI investigators of the punishments she and her 
family had experienced. She showed us the areas of her house that had 
been destroyed. Before leaving, PRI investigators were able to meet her 
baby boy, who was thirteen months old.
    She told us of the additional fines that must be paid if her son is 
to be eligible for medical care, schooling or employment in the future. 
At present, she described her little boy as a ``black child,'' that is, 
an unregistered and illegal person, who does not exist in the eyes of 
the state. Many of those we interviewed told us of the problems 
experienced by ``black children,'' who are punished for being born 
without a permit.
Congressional Testimony
    At an October 17, 2001 congressional hearing, the lead investigator 
of PRI's independent investigative team showcased the following 
testimonies recorded on audio- and videotape in China. These 
testimonies are a sample of the interviews carried out in China. All 
interviews took place within a few miles of the UNFPA office desk and 
within the borders of Sihui county:

          Questioner: If you violate the population control regulations 
        by having too many children, what happens to you?

          Woman: When I had my children, things were not as strict. 
        Right now, things are very, very strict.

          Questioner: What happens to you if you give birth to another 
        child?

          Woman: You want to have another child! You think it's that 
        easy to give birth!

          Questioner: Would someone come to your house and take you in 
        by force, in for an abortion?

          Woman: Yes. But they don't need to use force. They simply 
        require you to go.

          Questioner: And if you don't go?

          Woman (astonished): They require you to go and you don't go?

          Questioner: What if you say you don't want to go?

          Woman: What reason could you give [for resisting.] Giving 
        birth to an extra child is difficult, very, very difficult to 
        have a child.

          Questioner: But you yourself had three children. How did this 
        happen?

          Woman: First I had two. Then seven years later I had another 
        baby boy. They had already tied my tubes and I had another boy.

          Questioner: After you had an operation? After they tied your 
        tubes? How did they know you had a baby?

          Woman: They found out. Someone told them.

          Questioner: Then the family planning workers came to your 
        house. Did a whole troop of them come?

          Woman: A lot of them came. Many, many people.

          Questioner: What if you hid?

          Woman: That wouldn't work. They would tear down my house. 
        (Points at the ceiling). They would wreck it.

          Narrator: So she was sterilized a second time, at the 
        government's insistence, and there have been no more children.

                                 ______
                                 

        (Photo of woman, with child, interviewed September 2001, a 
        short distance from UNFPA office, in county where UNFPA 
        operates and claims coercion does not exist. This interview was 
        recorded on audio tape.)

          Narrator: This woman was pregnant with her second child, and 
        the authorities wanted her to abort . . .

          Woman: I was four-and-a-half months pregnant. They wanted me 
        to report to the hospital for an abortion but I refused to go. 
        I went into hiding in my mother's village. Then my brother, my 
        older sister, and my younger sister were all arrested. I had no 
        choice but to go somewhere else to hide. They arrested three 
        people in my mother's family but didn't destroy any homes. They 
        arrested six people in my mother-in-law's family and destroyed 
        three homes.

                                 ______
                                 

        (Photo of man and damaged home, interviewed September 29, a 
        short distance from UNFPA office, in county where UNFPA 
        operates and claims coercion does not exist. This interview was 
        recorded on audiotape.)

          Narrator: When they couldn't find the woman, they attacked 
        her home--and the homes of her relatives--with jackhammers. Her 
        father-in-law describes the damage.

          Man: Look at this. All of the doors and windows destroyed. 
        Here's a big hole that they knocked in the wall. It took forty 
        bags of cement to repair the holes.

                                 ______
                                 

        (Photo of women in waiting room, taken a short distance from 
        UNFPA office. PRI investigators spoke with several women in 
        this photo who confirmed that forced abortion exists in this 
        county where UNFPA operates.)

          Narrator: Here in a hospital waiting room, a pregnant woman 
        waits for an abortion. Too young at 19 years of age to get 
        married--the minimum age is 23--she has been ordered to report 
        for an abortion. As she disappears into the operating room, we 
        ask her three friends here with her: ``Would she like to keep 
        her baby?'' ``Oh, yes,'' they all replied, ``But the law 
        forbids it.''

                                 ______
                                 
UNFPA Operations in Jianou County, Fujian Province, and in Kuerle 
        County, Xinjiang Province
    PRI researchers also obtained information about two other UNFPA 
county programs, the first in Jianou county, Fujian Province, and the 
second in Kuerle county, Xinjiang Autonomous Region.
    We were told that the population control regulations of Fujian 
Province, which are enforced without exception in all counties, call 
for:

  <bullet> Mandatory use of IUDs.

  <bullet> Mandatory quarterly exams.

  <bullet> Fines of 50 yuan per day, and 2,000 yuan per month imposed 
        for non-compliance with mandatory examinations.

  <bullet> Forced sterilization after six months of non-compliance with 
        exam.

  <bullet> Mandatory registration of child within one month after birth 
        of child, punishable with forced sterilization for non-
        compliance.

  <bullet> Forced abortion, forced sterilization and 10,000 yuan fine 
        for pregnancy before age 20.

    In Xinjiang Province, particularly in rural areas like Kuerle 
county (Korla in the local Uighur language), local family planning 
officials frequently resort to brute force. Kuerle (Korla) county is 
the location of UNFPA's Xinjiang county program. Abuses include:

  <bullet> Forced abortion.

  <bullet> Forced sterilization.

  <bullet> Imprisonment.

  <bullet> Forced abortion and forced sterilization under imprisonment.
Note on UNFPA's Reaction
    The UNFPA responded to PMI'S investigation by organizing an in-
house delegation of UNFPA employees and associates to visit China. The 
eight-page ``Mission Report'' issued by UNEPA describes the details of 
their 22-26 October visit to Beijing, Guangzhou, Sihui county, and 
Qianjiang City, Hubei Province. Of the five days spent in China, half 
was spent in Beijing, in meetings, banquets and barbecues with Chinese 
officials from the Ministry of Foreign Affairs and the State Family 
Planning Commission.
    During half-day visits to Sihui and Qianjiang, the delegation was 
accompanied by Chinese officials from the national, provincial, 
prefectural, municipal, and county governments. They went on guided 
tours of several family planning clinics, and spent only 30 minutes on 
``household visits,'' which were again conducted in the presence of 
Chinese officials. In the absence of unsupervised contact with ordinary 
Chinese, it is unlikely that UNFPA could accurately assess the state of 
the one-child policy in Sihui county or anywhere else in China.
    The UNFPA's ``Mission Report'' presents no credible evidence, based 
on interviews with ordinary Chinese, to support its claim that 
voluntarism exists in its county program in Sihui, or anywhere else in 
China. Its ``Mission Report'' simply repeats assertions made by Chinese 
officials that coercion has been eliminated and targets and quotas have 
been lifted in Sihui county. The Chinese officials who make these 
assertions are not unbiased observers, but interested parties, who have 
every reason to put the best face on the family planning programs that 
they supervise, especially when these are called into question.
UNFPA Supports Coercion
    PRI's investigation in China shows that UNFPA supports China's 
family planning policy. UNFPA's support consists of public praise for, 
and misinformation about, China's coercive family planning policy. 
UNFPA also directly supports coercive family planning with funding, and 
through its complicity with the implementation of policies which are 
fundamentally coercive in principle and practice.

    Ms. Guy. And I did ask this to be officially moved into the 
record. May I do that, Senator?
    Senator Boxer. All of the statements will be placed into 
the record.
    Ms. Guy. OK. All right. Thank you.
    Senator Boxer. Thank you.
    Senator Brownback. Both of you made the point to me about 
just how much that mother went through that delivered my 
youngest daughter. As I think you said, Mr. Biegman, you still 
found two-thirds of the counties in China going through some 
sort of a forced abortion, even after this international 
pressure has been brought on China about their forced abortion 
policies. Was that the number you said?
    Ambassador Biegman. China is a big country, sir. It needs 
time to make this U-turn, which they made in principle when 
adhering to the Cairo program of action. It needs time to 
adjust its policies and to go toward the Cairo approach of 
volunteerism.
    Senator Brownback. But did you state there were two-thirds 
of the area that were still----
    Ambassador Biegman. At this stage, yes. I could have put it 
positively. I could have said one-third of China is already on 
the right track and the rest will follow whenever they can 
manage that administratively. That is the main bottleneck at 
this stage.
    Senator Brownback. I just want to make sure I understand 
what percentage of the country is still operating with this 
forced abortion policy.
    Ambassador Biegman. Yes. But I would like--I would like to 
stress that that is a part of the country where UNFPA is not 
active.
    Senator Brownback. I take it there is large portions of the 
country that you would submit that that was the case as well, 
that there are other ways that they can operate in a country, 
that they operate through other U.N. employees, sort of what 
you have said through other groups.
    Ms. Guy, I want to ask you, if I could, on some of the 
women that you interviewed, you said particularly the older 
women.
    Ms. Guy. Yes. The older women that were past the 
childbearing age, they wanted to talk mainly about what was 
going on with their daughters, because the programs were not in 
place as they are now for them. And they were really great. And 
I was moved. I have to say I was very moved about hearing what 
they had to say.
    The translator was there. She was translating to me some of 
the things that they were saying. And they just really wished 
it was not so for their daughters to have to be forced into 
this type of program.
    And the most intimate part of their lives is having had the 
IUD's inserted, and every 3 months they have to go and make 
sure that they are still there. I mean, one of the most 
personal things for me, and I am sure for most women in this 
room, is that our privacy, in terms of our reproduction, is 
just that. And this is something that is so intimate in a 
person's life. To just be wide open to scrutiny like this, I 
cannot imagine.
    Senator Brownback. Did you hear that in multiple occasions 
from older women?
    Ms. Guy. Yes. Yes, I did.
    Senator Brownback. Was it a common comment that they made?
    Ms. Guy. It was every comment, every--every village that I 
was in.
    Senator Brownback. That they would say that they were 
regularly--their daughters were regularly having to go in to 
make sure that the IUD's----
    Ms. Guy. Oh, yes. We have--we have testimony. Yes.
    Senator Brownback. Did any of them describe any forced 
abortions that their daughters were having to go through or had 
to go through?
    Ms. Guy. None of the older women, but the gentleman at the 
village where you saw the home, that was the father-in-law of 
the woman who went into hiding. He was very, very angry. You 
can hear--if you get an opportunity to listen to this, you can 
hear the anger in his voice about what happened to them. They 
lost a lot of money. They lost their homes.
    You just saw the window that had been repaired, but what 
they did with the jackhammers is they went to the third--if 
any--you have been to China. And so you know what the homes are 
like. In this area of China, they are brick homes, and the 
floors are cement. So you have the bottom floor, you have the 
second floor, and then you have the top floor. Well, they would 
go to the top floor and jackhammer an area maybe eight feet in 
diameter and jackhammer that floor. Then they would jackhammer 
the second floor. And then they would tear out their windows. 
And that means taking out iron bars, not just glass. They do 
not have windows like we have windows.
    So when they basically got finished, it was a frame that 
was left made of brick. And all of their household goods were 
carried off, and they had nothing. And they did that to try to 
force her out of hiding. She was a very--the hero of this story 
is this young woman, because she fled her village and went to 
her mother's village. And they discovered her there. So she had 
to leave again.
    And as a result of that, they imprisoned her family and her 
husband's family and destroyed three homes in her husband's 
family. And they were in prison for over 4 months. And the 
village, the villagers actually raised the money to get them 
out of prison, which was the 17,000 RMB. But she still has to 
pay another 17,000 before she can register her child to be able 
to go to school.
    Senator Brownback. So the child cannot go to school unless 
she raises the additional 17,000----
    Ms. Guy. Unless she comes up with the additional money.
    Senator Brownback. You know, I am going to submit your 
report to the UNFPA.
    Ms. Guy. OK.
    Senator Brownback. And I will invite other members to join 
me on this, because I think, as the chairman noted, we all find 
forced abortion, forced sterilization taking place, as well as 
to the State Department, to ask them to specifically respond to 
the case that you have brought forward. And I would hope that 
they would thoroughly investigate a continuation of these sorts 
of charges and this happening. It is so aggressive on the part 
of the Chinese.
    Ms. Guy. Yes. If an investigation could be conducted where 
the officials were not present, I think they would--I think 
most of us here would have to admit that the results may have 
been a little different for them also.
    But--you know, I promised these women that I would not 
reveal their identity. And so because of that, on the face it 
may appear as though I am obstructing an investigation, but 
that is not my purpose. My purpose is to protect them, because 
they were relentless in what they did to this woman and to her 
family. And I cannot imagine what they would do if they were 
able to identify her.
    Senator Brownback. The chairman and I have worked a great 
deal on women's rights in Afghanistan. And thankfully we are 
seeing some good progress taking place there. And I am hopeful 
we can get some funding for hospital equipment, so that women 
will have--women and everybody else will have it. But for this 
sort of thing continuing to take place in China is just not 
acceptable. So I am going to put that forward and ask for 
responses and see if other members will join me on that as 
well.
    Ms. Guy. And as a reminder, I just want to point out that 
this was one of the model counties that UNFPA was operating in, 
that they said was going voluntary. And, you know, I did not--I 
thought at first, when I went, I thought, how am I going to 
walk into a village and just find these kinds of stories? And 
to my surprise, every village I went to, it was not hard to 
find stories. I did not have to search them out. I just started 
to ask people.
    Senator Brownback. Amazing. Tragic.
    Senator Boxer. Well, perhaps you could tell Senator 
Brownback the names of those people so he can follow up with 
them, maybe make a trip ourselves.
    Let me ask you this question, which confused me a little 
bit.
    Ms. Guy. I am sorry?
    Senator Boxer. You said you went into the family planning, 
Chinese Family Planning Agency, which of course, if these 
things happened, is quite responsible for all those things that 
we have talked about, Correct? Why did you go there? Did you go 
there to--you went three times. Did you go there to tell these 
people what you had seen, to try to get them to stop? Why were 
you there?
    Ms. Guy. The sole purpose of going was to try and locate 
the UNFPA. That was the only reason for going.
    Senator Boxer. You went there to find the UNFPA office.
    Ms. Guy. We were told that UNFPA was operating in this 
county. So we made----
    Senator Boxer. So getting back to the famous empty desk 
situation----
    Ms. Guy. Yes. Do you mind if I finish my sentence?
    Senator Boxer. You can finish as many as you would like.
    Ms. Guy. OK. Thank you. So we made the assumption that if 
they were operating in this county, maybe thinking like 
Westerners, that there would be a county office where the UNFPA 
operated. So based upon that assumption, we just--we went to 
the county building, which you saw, the large building.
    Senator Boxer. Yes, we sure did.
    Ms. Guy. And when we inquired as to where the family 
planning office was, they took us in--if you can read--I cannot 
read Chinese, but the Chinese language on the sign says ``The 
Chinese Family Planning Office.'' And then after further 
inquiry, they are the ones that identified the UNFPA desk.
    Senator Boxer. Was there a sign that said U.N. desk?
    Ms. Guy. No.
    Senator Boxer. And you said the person--you went back three 
times, and no one was there.
    Ms. Guy. No. There were----
    Senator Boxer. At the so-called UNFPA desk, there was not 
anyone there three times, three different times?
    Ms. Guy. You mean actually sitting at the desk?
    Senator Boxer. Yes.
    Ms. Guy. No. We asked where this individual was, and that 
is when we were told that she had a serious illness and that 
she was hospitalized.
    Senator Boxer. OK. But you have just heard before that 
there are four people, and they only make trips once a year. So 
I think we should pursue that issue as well about this shared 
desk and the people and the sick person and try to figure this 
thing out because I will tell you why, I will tell you why. I 
would like to talk to that person.
    Ms. Guy. Well, we wanted to, too. And that is why we----
    Senator Boxer. Well, I know. Well, good. So now you have me 
on your side. I would like to talk to the person who was ill, 
in the hospital, who sits at that desk every day because, first 
of all, they are not supposed to be. They are supposed to come 
once a year. So I have to find out who that is. And then I am 
going to show them this tape, if you will leave it with me.
    Ms. Guy. It is part of the official record, I believe.
    Senator Boxer. Very well. I would show that person that 
tape and start asking some questions, ``Is it true that you are 
here? And how often are you here?''
    Ms. Guy. I would volunteer to do that for you, because I 
honestly, Senator Boxer, do not believe that you would get an 
honest answer.
    Senator Boxer. Well, thank you. You do not know me well 
enough. I think I would.
    Ms. Guy. OK.
    Senator Boxer. And since I am one of the biggest advocates, 
and continue to be after this hearing even more than ever, of 
UNFPA, I think the UNFPA will in fact tell me who was at that 
desk. You have the picture there. So we can show them the 
picture. Who was ill, what was that story, and do they know 
anything about these individuals whom you have shown us, 
because if, in fact----
    Ms. Guy. Which is a path back to those individuals.
    Senator Boxer. If, in fact--excuse me?
    Ms. Guy. I think which would lead you back to those 
individuals. I think it is the hope that you have.
    Senator Boxer. Well, the hope that I have is to find out, 
and this is important, if UNFPA people knew about this and 
actually sat in an office where, as you say, they had to know, 
when it conflicts with what I know about UNFPA, that in fact 
they only go there--you know, there are four of them, and they 
cover the whole country.
    So I need to find out. Your testimony is fascinating. But 
it leads me to a lot of curiosity.
    Ms. Guy. I understand.
    Senator Boxer. Yes. So I am going to--just so you know what 
I am doing----
    Ms. Guy. Sure.
    Senator Boxer [continuing]. I am going to get in touch with 
UNFPA. I am going to--I want them to see this, because it is 
highly upsetting. And I want to find out, you know, the 
situation with this desk.
    [The following letter from UNFPA was subsequently 
received.]

                            The Executive Director,
                      UNFPA United Nations Population Fund,
                                       New York, NY, March 4, 2002.

The Honorable Barbara Boxer
United States Senate,
Senate Hart 112,
Washington DC, 20010.

Dear Senator Boxer,

    I understand that the Senate Foreign Relations Sub-Committee on 
International Operations and Terrorism held a hearing last week on the 
U.S. funding of the United Nations Population Fund (UNFPA). I would 
like to thank you for bringing this issue to the attention of the Sub-
Committee.
    It is my understanding that several questions related to UNFPA and 
its programme in China were raised, and I hope that I can help to 
clarify any outstanding issues.
    First and foremost, I share your deep and profound concerns 
regarding the allegations of forced abortion, coercion and destruction 
of property in China. It is precisely because of these concerns that 
UNFPA developed a programme in China to demonstrate to the Chinese 
Officials that population programmes can be effective while respecting 
basic human rights. UNFPA's Executive Board, which takes decisions on 
all UNFPA country programmes, believes that we should be engaged in 
China with open eyes, not close our eyes and turn our backs on China.
    All UNFPA activities adhere to international human rights 
standards, including those articulated at the 1994 International 
Conference on Population and Development. These standards assert that 
in no case should abortion be used as a method of family planning and 
that coercion is unacceptable in family planning programmes. This is 
our mandate, and we are committed to ensuring that nations provide 
voluntary family planning services that respect the rights and dignity 
of all their citizens.
    It has been brought to my attention that Josephine Guy, Director of 
Government Affairs for America's 21, testified concerning her early 
Fall investigative trip to China. I want to assure the Sub-Committee 
that UNFPA is well aware of her investigation and subsequent report. In 
fact, when the House International Relations Committee held a hearing 
on this subject, a member of my staff spoke with the staff of 
Representative Henry Hyde and requested that Ms. Guy and any other 
witnesses meet with UNFPA and U.S. Department of State representatives 
so we could discuss details of her troubling allegations and 
investigate her charges. Unfortunately, Representative Hyde's staff 
member, Joseph Reese, refused our request.
    Although we were unable to meet with Ms. Guy to discuss her 
findings, UNFPA made a quick determination that the serious nature of 
her allegations required an independent review. As you may be aware, 
UNFPA is a multilateral organization and we are both governed and 
supervised by an Executive Board that is comprised of Member States of 
the United Nations, including the United States. Accordingly, we asked 
members of our Executive Board to conduct an investigative mission to 
China. I believe that the Sub-Committee has a copy of the resulting 
investigative report, as well as the written and oral testimony of the 
mission's leader, Ambassador Nicolaas Biegman.
    I understand that some members of the Sub-Committee question the 
independence of this investigation. Accordingly, I would be pleased to 
work with all of you and the Department of State to develop a U.S. 
review team that can visit the UNFPA programme counties in China and 
satisfy your concerns for independence. As you may know, the UNFPA 
programme in China is one of the most monitored programmes in the 
entire United Nations system. Since 1999, there have been over 60 
independent reviews of this programme, in addition to UNFPA's own 
internal monitoring. Moreover, as a member of the UNFPA Executive 
Board, the United States has regularly monitored this programme from 
their Embassy in Beijing. Accordingly, I am confident that any further 
investigation and consultation with the U.S. embassy and its 
professional foreign service team will confirm that UNFPA does not 
support or participate in forced abortion or other human rights 
violations in China.
    I also understand that concerns were raised about an alleged UNFPA 
desk in the State Family Planning Commission in Sihui City in Guangdong 
Province. I have attached to this letter a listing of all UNFPA staff 
in China, which consists of four international professional staff and 
nine local recruits primarily for administrative functions. All of 
these staff are based in Beijing, and none of them has a desk in Sihui 
or any other county. The UNFPA China Office also handles the programme 
in Democratic People's Republic of Korea (DPRK) (North Korea). I 
understand that Ms. Guy testified that she never observed any UNFPA 
staff at the desk in question and was told that the individual was 
``seriously ill and in the hospital.'' While Ms. Guy and the Population 
Researcb Institute (PRI) (which she has referred us to for all 
inquiries) remain unwilling or unable to provide us with the address of 
this alleged UNFPA desk, perhaps we could gain your assistance in 
earning the name of the person she believes works for UNFPA and was 
seriously ill and in the hospital at the time. This would enable us to 
follow-up on these allegations.
    Finally, the central assertion of PRI is that UNFPA has certified 
or claimed that these counties are coercion free. In fact, UNFPA is not 
capable of making any such assertion. We have required that China 
formally rescind quotas in these counties. Strengthening voluntarism 
and avoiding coercion is the raison d'etre of the programme, and is 
therefore the central concern of both government and UNFPA in its 
planning, implementation and monitoring of the programme.
    If you or other members of the Sub-Committee have any additional 
questions or need more information, I would be happy to provide it. 
Again, thank you for your time and attention to these serious matters. 
The United Nations Population Fund considers the United States a 
supportive partner in its efforts and would be deeply troubled by a 
loss of its critical leadership on international family planning 
issues.
    I would be pleased to meet with you in person at your convenience.
    Please accept, dear Senator Boxer, the assurances of my highest 
consideration.
            Yours sincerely,
                                       Thoraya Ahmed Obaid,
                                           Under-Secretary-General.

List of United Nations Population Fund (UNFPA) in China and Democratic 
                   People's Republic of Korea (DPRK)

International Office Staff
Representative: Ms. Siri Tellier
Deputy Representative: Ms. Junko Sazaki
Junior Professional Officer for PO1 ``Reproductive Health/Family 
        Planning'': Ms. Magnus Bjorg (leaving in May).
Junior Programme Officer: Ms. Kumiko Yoshida (will take over for Ms. 
        Bjorg).
UN Volunteer for PO2: ``Women's Empowerment'': Ms. Lisa Eklund
UN Volunteer for PO1: ``Reproductive Health/Family Planning'': Dr. 
        Estrella Serrano
National Office Staff
National Programme Officer: Mr. Jin Zhicheng
National Programme Officer: Mr. Yu Yu

National Office Support Staff: Seven support staff.

    Senator Boxer. Now I do not have any questions, other than 
I would like to sum up.
    Do you have any further questions, Senator?
    Senator Brownback. I would like to sum up as well.
    Senator Boxer. Why do you not go ahead then? And then I 
will close it.
    Senator Brownback. The question that I think all of us are 
having here is: No. 1, setting aside the hospital here, because 
we need to get funding for these items--and we ought to find it 
from any source that we possibly can at this point, so that we 
can get that aid into Afghanistan. And I am committed to doing 
that.
    And, Ms. Oakley, or others, if you see ways that we can go 
at that or we can put it forward right now, let us get that 
there, rather than get involved in this bigger fight.
    The second issue here is the involvement of UNFPA in forced 
abortions in China, which has been a simmering issue for a 
long, long period of time, allegations, cross allegations, back 
and forth. And I think at the base of that what we have to ask 
is: How does the UNFPA operate in China?
    One of the allegations has been that UNFPA puts a lot of 
money in without adequate observation in China. And so some of 
it is being used in ways that many people do not support.
    Another--and this is just--I just heard this today, that 
UNFPA operates with four people, but subcontracts to a lot of 
other U.N. agencies in China. So we need to understand just how 
they are structurally operating in China. That should not be 
too difficult to be able to determine just how structurally 
they operate in China.
    And certainly I would hope they would come forward with 
some pretty straight answers for us here, so we can determine 
their degree of responsibility.
    And finally, just this practice that is taking place in 
China, we need to determine UNFPA's funding of that. And maybe 
it is funding without their knowledge of what actually is 
taking place. Maybe it is funding with their knowledge of what 
is taking place. Maybe they are not funding it at all or even 
involved in it.
    We should find out to what degree that that is taking place 
in China or other places around the world, so we can just 
understand particularly this, because this has been a 
simmering, long-standing issue. This is not something new to 
this committee's undertaking today.
    So I would hope the administration would take its time and 
look at trying to figure out what that case is and, in the 
meantime, get the funding for the hospital and other places 
that has been brought forward here in Afghanistan. I plan to 
submit this information to UNFPA and to the administration for 
them to thoroughly get a chance to look at these items.
    So though the chairman and I come at this from different 
perspectives, I think you have raised, all of you, some very 
troubling questions about what is taking place. And hopefully 
we can do some things that need to take place now, such as the 
funding for the hospital, and then find out at the bottom of 
this just what else is happening at the UNFPA, how complicit or 
not it is in some of these operations.
    Thank you, Madame Chairman----
    Senator Boxer. Thank you.
    Senator Brownback [continuing]. For holding a tough 
hearing.
    Senator Boxer. Well, it is a very important issue. And let 
me say how strongly I feel that the administration should 
release the $34 million yesterday. And I feel that more than 
ever. We knew when we started this hearing that sadly there is 
still coercion and forced abortion in China. Every one of us 
condemns it.
    We knew when we started this hearing, and we still know, 
that American funds that are given to UNFPA cannot be used in 
China. So what is happening by this punishment--and my friend 
talks about the hospitals. Listen, that $34 million can be used 
in 140 other countries, including Afghanistan, to prevent 2 
million unwanted pregnancies. And are we going to hold it up, 
because of a policy that we all think is terrible, but has 
nothing to do with United States of America's dollars?
    You know, that is cruel, cruel. That money will help, will 
prevent, will help prevent, 800,000 induced abortions, 4,700 
maternal deaths, 60,000 cases of serious maternal illness, and 
over 77,000 infant and child deaths. You know, for the life of 
me, I do not get it. It will prevent HIV/AIDS, which we all 
desperately want to stop.
    We are holding up money to make a point that we can make 
every day of the week and not hold this money hostage to help 
all the other people. We are not using our funds there. So from 
what I understand, what I hear--and, Ambassador, I thought you 
were eloquent on the point, because you were talking from your 
experience on the ground. You were honest about it. You 
admitted. You said there is still a real problem in China. But 
they are moving in the right direction. And one of the reason 
is UNFPA.
    So to me, it seems so counterproductive to say how much we 
are appalled by the coercion in China, and we will work to end 
it, and then do something that in essence does not help that 
situation but condemns a lot of other people to a lot of 
misery. I think this is an opportunity for all of us of every 
single political persuasion to team up here and say, ``We will 
work together and raise our voices against any coercion when it 
comes to family planning or abortion.'' That is why I am pro-
choice, because I want people to choose.
    I would fight any government every step of the way for 
forcing a woman to go in any direction. And so to me we should 
be joining hands. Instead, we are in this debate. Now the 
Senator has given me an opening, because he is concerned very 
much about the hospitals in Afghanistan. We will work together 
on that.
    But that does not address the bulk of the funds which are 
being used to help people live. So I feel very passionate about 
this.
    I will follow up on this tape and with UNFPA. And Ms. Guy 
will work with Senator Brownback on that issue. We will let you 
know how our--what we find out about the missing individual at 
the desk. We will learn----
    Ms. Guy. I would be happy to work with you, too, Senator 
Boxer.
    Senator Boxer. I look forward to that and getting those 
answers for you, because you went back three times and were 
told something and then never could follow up.
    And I hope, Mr. Eberstadt, to see you again soon. Maybe one 
of these days we will actually be together, but it is always a 
pleasure to see you.
    Ms. Oakley, thank you very much.
    Ambassador, my good friend Senator Brownback, we appreciate 
everybody coming today. It is a hard issue. We each see it 
differently, but that is what this great country is all about. 
That is what we are fighting for, the ability to disagree and 
respect the way and move forward with compromise.
    Thank you.
    We stand adjourned.
    [Whereupon, at 4:45 p.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair.]

                              ----------                              


            Responses to Additional Questions for the Record


   Responses of Hon. Arthur E. Dewey to Additional Questions for the 
               Record Submitted by Senator Barbara Boxer

    Questions. Your written testimony demonstrates the concern of the 
State Department over periodic reports of abuse and coercion in China's 
family planning program. You mention in your testimony that U.S. 
Foreign Service officers have been dispatched from time to time to 
investigate such reports. Can you tell us what these officers have 
reported to the Department about: (a) coercive activities in China; and 
(b) concerning the issue at hand, whether they have ever reported, 
inferred or in any way suggested that DNFPA is involved, complicit or 
in any way associated with coercive activities in China?
    Your testimony also says that since 1998, the Mission has been 
``closely'' monitoring UNFPA's pilot program in China. Again, please 
advise the subcommittee as to what the Mission has found. Has the 
Mission expressed concern about UNFPA's activities? Has the Mission 
ever--in any reporting or any communication with the Department--
suggested that UNFPA's activities are helpful in encouraging 
voluntarism? The issue of UNFPA's program in China is well known to the 
Department, to the Congress, and presumably to the Mission. Has the 
Mission ever been asked its opinion about whether UNFPA has been 
involved in or in any way supports--directly or indirectly--coercive 
activities in China? What is the Mission's view about UNFPA's presence 
in China?
    Can you tell the Committee what the administration and the 
Mission's view is about whether the nations and organizations that 
uphold universal standards of human rights should be engaged in China? 
Does the administration believe if there are violations of human rights 
in China, that U.S. activities in China should be discontinued? For 
example, if there are reports of forced labor, does the administration 
believe that U.S. business should no longer do business in China?
    The subcommittee was also interested in your spoken testimony, in 
which you indicated that the issue of UNFPA funding was out of the 
State Department's hands. Can you report to the subcommittee as to why 
the State Department has been relieved of its responsibilities in this 
matter?

    Answers. Coercion in China's family planning program is a violation 
of international human rights instruments and an issue of concern to 
the Department. Our officers continue to report on this issue. For 
example, the Department raised the issue of coercive family planning 
last October during the resumed U.S.-China human rights dialogue. 
Specifically, we urged Chinese authorities to take action against 
family planning officials when abuses occur (e.g., coercive abortion, 
destruction of property, imposition of punitive fines). We also urged 
them to effectively implement the central government's policy 
prohibiting coercion in family planning programs, and stressed that 
steps be taken to ensure that local officials are held responsible for 
their actions.
    Our Ambassador to China--Ambassador Randt--also raised this issue 
in a meeting last month with the Director General of China's State 
Family Planning Commission (SFPC). Specifically, Ambassador Randt 
stressed the need for China to establish a more transparent system of 
enforcing family planning regulations and a better method for Chinese 
citizens to report abuses by local family planning officials. The 
Ambassador noted our concern about coercive practices, particularly 
forced abortions and sterilizations.
    In both conversations, Chinese officials acknowledged problems with 
enforcing family planning regulations and promised that violators of 
the central government's policy prohibiting coercion in family planning 
programs would be investigated and, if found guilty, punished. They 
reaffirmed earlier Chinese government commitments to work closely with 
us to investigate allegations of abuse and promised to provide us with 
information about their efforts to investigate, prosecute and sentence 
those found guilty. They also agreed to consider suggestions that the 
SFPC publish regular reports of administrative sanctions against 
malfeasance. We plan to follow up and monitor their actions to see if 
they are consistent in word and deed.
    Regarding UNFPA, the U.S. has worked closely with the Fund on its 
China program. Following the conclusion in 1995 of UNFPA's previous 
program in China, UNFPA spent two years negotiating a new program. The 
new program, approved by the Executive Board in 1998, requires the 
removal of birth targets and quotas in the 32 program counties in which 
UNFPA is active. It also provides for expanded access to voluntary 
contraceptive methods, improved quality of care, and women's economic 
empowerment.
    Prior to joining consensus approving the new program in 1998, the 
U.S. insisted on and received assurances from Chinese officials that 
monitoring access and oversight by the UNFPA Executive Board, U.S. 
diplomatic staff in China, and independent observers to assess the 
voluntary nature of UNFPA's program would be allowed. As a Board 
member, we take our oversight authorities very seriously. We continue 
to raise concerns in our statements at Board meetings about the 
importance of China moving to a voluntary family planning program.
    Officers in our Embassy and Consulates have visited UNFPA projects 
in China. However, no comprehensive review has been undertaken. The 
primary issue is whether UNFPA's program in China is in violation of 
legislation that prohibits USG funding to any organization that 
supports or participates in the management of a program of coercive 
abortion or involuntary sterilization. Until such time we conduct a 
comprehensive assessment of UNFPA's overall program in China, the 
administration cannot determine whether the Fund is in violation of 
this legislation. The State Department is actively preparing the launch 
of such an assessment.
                              ----------                              


             Additional Statement Submitted for the Record


Prepared Statement of John Flicker, President, National Audubon Society

    Madame Chairman and Members of the Subcommittee:
    Thank you for the opportunity to testify about the importance of 
meeting the congressional goal to provide $34 million to the United 
Nations Population Fund (UNFPA). Audubon believes that international 
family planning is an environmental issue. We believe it is critical to 
emphasize the connection between the health of birds, wildlife, humans 
and the environment.
    Human population growth is one the most pressing environmental 
problems facing the world today. International family planning 
programs, the very programs carried by UNFPA, have been proven to slow 
population growth and decrease environmental degradation. The United 
States must fully fund UNFPA programs as Congress intended. We urge 
President Bush to end the delay and fully release the $34 million for 
UNFPA.
    For thousands of years, birds have been one of our most important 
early warning systems. Birds have predicted the change of seasons, the 
coming of storms, the presence of land at sea and the rise of toxic 
levels of pollution in the food chain.
    Now birds are telling us something is terribly wrong with the 
environment.
    More than 50 percent of migratory songbirds in vast sections of the 
United States are in decline. Across the nation, warblers are 
disappearing, as are painted buntings, bobolinks and dozens of other 
songbirds. Scientists say the demise of these songbirds is caused by 
the destruction of their habitat, brought about by rapid rates of human 
population growth.
    Many of ``our'' songbirds spend four to nine months of the year in 
the tropical forests of Latin America and the Caribbean. These forests 
are being cut to the ground at record rates. In Central America, more 
than 40 percent of the forest canopy has been destroyed in the last 30 
years, as the population of the region has doubled.
    Whether the birds are flying north or south, they are being 
hammered by rapid rates of population growth. And it's not just the 
birds.
    For millions of years, Caribbean sea turtles have migrated 
thousands of miles to nest on the very beaches on which they were born 
many years before. Now rapid coastal development in the Caribbean--
combined with pollution, reef destruction, and over-fishing--threaten 
every species of sea turtle found in U.S. waters--leatherback, 
hawksbill, Kemp's ridley, loggerhead and green.
    Meanwhile, on the other side of the globe, population pressure and 
habitat destruction are pushing gorillas, chimpanzees, orangutans, and 
smaller monkeys closer to extinction. The 600 Mountain Gorillas 
remaining in the world live in the rainforests of Rwanda, Uganda and 
the Congo--countries with the fastest population growth rates on Earth. 
The orangutan, found only on the islands of Sumatra and Borneo in 
Indonesia, is near extinction because of hunting and habitat loss. 
Experts now say all the great apes may be extinct within the next 20 
years.
    What's happening to birds, great apes and sea turtles is happening 
to wildlife all over the world--to tigers in India, elephants in 
Thailand, and jaguars in Central America. Though many of the world's 
creatures face peril now, the real trouble lies ahead.
    Across the globe, more than a billion teenagers are entering their 
reproductive years--the largest cluster of teens in world history. The 
choices these young people make in the next decade will determine the 
fate of our natural world for generations to come. If birth rates 
remain at current levels, demographers say the world will add more 
people in the next 50 years than it has in the previous 500,000 years.
    Population growth is about more than the environment, of course. 
It's also about the health of women, crushing unemployment and poverty 
rates, and rising levels of social and economic instability in the 
developing world.
    The United States has done too little to help. As the global 
population has climbed 60 percent since 1970, U.S. family planning 
assistance, as a percentage of total federal budget outlays, has 
declined by 40 percent. Although we joined 179 other nations in Egypt 
in 1994 in pledging specific support for international family planning 
efforts, this country has actually made good on less than one-third of 
that commitment.
    Right now, the U.S. contribution to the UNFPA is in jeopardy. While 
Congress appropriated $34 million for the UNFPA last year, the 
Administration's proposed budget for FY 2003 contains UNFPA funding 
language that ``reserves'' this money for FY 2002 and asks for a 
reduction to $25 million for FY 2003 (again ``reserved'').
    We find this hedging language extremely disappointing.
    We urge President Bush to act on what is a matter of life and death 
for wildlife, women and children the world over. Voluntary family 
planning programs like those carried out by the UNFPA in 140 developing 
countries around the world are vital to slowing human population growth 
and the pace of habitat destruction worldwide.
    We thank you and the Members of this subcommittee for giving this 
matter the attention it deserves. We hope that this hearing results in 
the release of the funding for UNFPA.

                                   - 

</pre></body></html>
